<html>
<title> - GENDERCIDE: CHINA'S MISSING GIRLS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   GENDERCIDE: CHINA'S MISSING GIRLS
=======================================================================

                                HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2016

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.cecc.gov
         
                               ___________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE                
99-772 PDF                 WASHINGTON : 2016                    
          
________________________________________________________________________________________         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294e5946694a5c5a5d414c4559074a464407">[email&#160;protected]</a>  
        
         
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             JAMES LANKFORD, Oklahoma
DIANE BLACK, Tennessee               BEN SASSE, Nebraska
TIM WALZ, Minnesota                  DIANNE FEINSTEIN, California
MARCY KAPTUR, Ohio                   JEFF MERKLEY, Oregon
MICHAEL HONDA, California            GARY PETERS, Michigan
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                             
                             
                             
                             
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Walz, Hon. Timothy, a U.S. Representative from Minnesota.........     3
Franks, Hon. Trent, a U.S. Representative from Arizona...........     5
Pittenger, Hon. Robert, a U.S. Representative from North Carolina     6
Chai Ling, Founder, All-Girls Allowed--In Jesus' Name Simply Love 
  Her............................................................     8
Hvistendahl, Mara, Contributing Correspondent for Science 
  Magazine and Author of ``And the City Swallowed Them'' and 
  ``Unnatural Selection: Choosing Boys Over Girls, and the 
  Consequences of a World Full of Men''..........................    14
Brenning, Julie Ford, Director of Research and China Outreach, 
  Give Her Life..................................................    18

                                APPENDIX
                          Prepared Statements

Chai Ling........................................................    32
Hvistendahl, Mara................................................    35
Brenning, Julie Ford.............................................    40

Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Chairman, Congressional-Executive Commission on China..........    57
Rubio, Hon. Marco, a U.S. Senator from Florida; Cochairman, 
  Congressional-Executive Commission on China....................    58

                       Submissions for the Record

Article from Foreign Policy titled, ``Where Have All the Girls 
  Gone? '' by Mara Hvistendahl, dated June 27, 2011..............    60

Witness Biographies..............................................    67

 
                   GENDERCIDE: CHINA'S MISSING GIRLS

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2016

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:32 p.m., 
in Room 2255, Rayburn House Office Building, Hon. Christopher 
Smith, Chairman, presiding.
    Also Present: Representatives Pittenger, Franks, and Walz.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The Commission will come to order. Good 
afternoon to everybody. Thanks for being here.
    There are tens of millions of missing girls in China today. 
It is a predictable consequence of Beijing's cruel and barbaric 
child limitation policies and cultural preference for boys.
    In her book, ``Unnatural Selection: Choosing Boys Over 
Girls, and the Consequences of a World Full of Men,'' Mara 
Hvistendahl, one of our witnesses today, writes that ``there 
are over 160 million females `missing' from Asia's population. 
That is more than the entire female population of the United 
States. And gender imbalance--which is mainly the result of sex 
selective abortion--is no longer strictly an Asian problem.''
    In Azerbaijan and Armenia, in Eastern Europe, and even 
among some groups in the United States, couples are making sure 
that at least one of their children is a son. So many parents 
now select for boys--so many do so--that they have skewed the 
sex ratio at birth [SRB] of the entire world.
    The global crisis of missing girls constitutes a gross 
human rights abuse--which is aptly described as gendercide--the 
extermination of the girl child in society simply because she 
happens to be a girl.
    For most of us, the statement ``it's a girl'' is cause for 
enormous joy, happiness, and celebration. But in many 
countries, and even in some parts of the United States--it can 
be a death sentence. In China and India alone, an estimated 
three girls are aborted every minute simply because she is a 
girl.
    Gendercide is not only a predictable tragedy of lost 
potential, but also a demographic timebomb, particularly in 
China, with social, political, and potentially even security 
implications.
    China faces some of the world's most sever gender 
imbalances--according to official estimates, there are 
currently 34 million more males than females in China. 
Demographic experts, such as Valerie Hudson and Nicholas 
Eberstadt, who have testified before this Commission 
previously, have warned that China's large number of ``surplus 
males'' could lead to societal instability, higher crime rates 
and sexual violence, and has already increased trafficking of 
women and girls.
    Trafficking, in particular, is a predictable consequence. 
As the author of the Trafficking Victims Protection Act of 
2000--America's landmark law to combat sex and labor 
trafficking--I am deeply concerned that China has become the 
human sex trafficking magnet of the world.
    We have seen a marked increase of women trafficked from 
neighboring Southeast Asian countries such as Vietnam, Myanmar, 
and Cambodia being trafficked into China as brides and for 
sexual exploitation. North Korean women who escape into China 
also remain at risk for human trafficking for forced marriages 
and forced labor. And of course, inside of China there is great 
deal of trafficking going on in the country from one province 
to the next.
    China's gender imbalances are significantly exacerbated by 
government policy--particularly its draconian population 
control policies. Chinese law currently bans the use of 
ultrasound scanning technologies to determine the gender of 
unborn babies, but because couples are limited to one or two 
children, millions have easily circumvented the law to abort 
female unborn babies to ensure that their ``government-approved 
child'' will be a son.
    China's recently announced ``Two-Child Policy'' will not 
address China's demographic imbalances. Data has shown that sex 
ratios are often more skewed after the birth of a first child. 
In many parts of China, the largest sex-ratio imbalances are 
found in townships or villages where many residents were 
already allowed to have a second child.
    We are holding this hearing today not only to better 
understand the magnitude of the problem, but to find better 
ways to help rescue the next generation of potentially missing 
girls from violence and death.
    We are asking: Are there models from other places with past 
or present gender imbalances--such as South Korea and India--
that might be used in China and elsewhere? As Valerie Hudson 
has testified before this Commission previously, South Korea 
addressed skewed sex ratios in part by elevating the status and 
value of women and daughters, specifically in terms of 
encouraging female access to education, as well as equal 
inheritance, marriage, and property rights.
    Given that the Obama administration, the United Nations, 
and especially the UN Population Fund [UNFPA] have failed to 
adequately address the scandal of gendercide, what needs to be 
done to end these massive crimes against women?
    I would note parenthetically that my first amendment in my 
second term--controversial at the time, but it wasn't so much 
as time went on--was on the forced abortion issue in China to 
deny any funds to any organization that supports or co-manages 
a coercive population control program. And UNFPA was found to 
be one of those that did so.
    Then, what can Congress do to help U.S.-based companies, 
such as General Electric, to prevent ultrasound equipment which 
should be used to promote wellness of unborn children from 
being employed as a gender crime search and destroy mission?
    As we know, at 5 months--usually--gestation, that is when 
the sex of the baby can be determined and that is when, 
unfortunately, many of these little girl children are killed.
    What role can the President, including the State 
Department, and Congress play to encourage durable reforms of 
Chinese policies? Are we raising it? I have asked repeatedly in 
Chinese human rights dialogues, how robustly do we raise it? Or 
is it just one of the talking points that quickly is glided 
over to get to the next issue. And then, by the time it is 
over, nothing except what was in that room goes on to become 
policy.
    What U.S. laws need to be reformed or enforced? I would 
note that in 2000, I authored a visa ban law--wrote that law--
for those complicit in coercive abortion and involuntary 
sterilization. Not only has the Administration failed to 
enforce the ban, but has not responded to our December 9 letter 
asking why. That is not the first letter that I and others have 
sent asking for an explanation.
    Just enforce the law. Make those who are treating women in 
such a horrific manner ineligible to come to the United States. 
It is not rocket science. We have done it with the Magnitsky 
law, vis-a-vis Russia. We have done it with the Belarus 
Democracy Act which I wrote in 2004--for the Lukashenko regime, 
a terrible dictatorship in Belarus--and you hold individuals 
responsible and, again, deny them a visa.
    Congress passed and the President signed into law the Girls 
Count Act this past year--championed by our Cochair, Senator 
Rubio, and Congressman Steve Chabot. This law makes protecting 
children, especially the girl child, a priority for U.S. 
foreign policy. How should this law be implemented and 
directed?
    I believe--and I do believe I share the views of my 
colleagues--that by shining a light on what is happening in 
China with its missing daughters, we hope to move toward a 
world where every woman is valued and deeply respected because 
of her intrinsic dignity, and where every child is welcomed 
regardless of his or her gender.
    I would like to now yield to my good friend and colleague, 
Ranking Member Tim Walz.

  STATEMENT OF HON. TIMOTHY WALZ, A U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Representative Walz. Well, thank you, Mr. Smith and thank 
you to our witnesses for being here helping to share some of 
your knowledge on this issue.
    I also thank the Chairman and I think it is important to--
as this Commission, maybe one of the last bastions in the 
Congress of trying to stand on human rights as a whole and talk 
about the importance of our policies. As I think many of us 
know, this Commission came out of the decision to decouple the 
idea of human rights with economic trade. I think this issue 
goes across the board of how the United States approaches our 
relationships, approaches our responsibilities and approaches 
those both unilateral and multilateral relationships.
    In November, I had the opportunity to travel and be in Hong 
Kong, and Beijing, and Tibet and had dinner with the Ambassador 
of China at his residence. I can assure you, Mr. Smith, we are 
raising this, we are talking about these issues.
    I cannot tell you that I feel like it is necessarily any 
better on the rule of law on human rights, stretching from 
religious freedoms to reproductive freedoms to many of the 
other issues that we have discussed in here. I can tell you 
that it feels to me like there is a candor that has not been 
there before and I think it is instrumental and maybe can be 
attributed to the work that you have done and this Commission 
has done by continuing to put this issues in the forefront, to 
refuse to allow them to not be brought up, to not be discussed.
    I think in it lies an opportunity to strengthen a 
relationship that is going to be critically important while 
this issue extends beyond the People's Republic of China to 
India and others as we have talked about, this is an area that 
we are going to have to come to some agreements with. We are 
going to have to see some movements and I think in this 
Congress--once again, we have had this conversation at the 
Foreign Affairs Committee where you and I testified--how far 
the American people are willing to go to ensure that these 
values and these basic human rights are adhered to as we deal 
with trade deals.
    So I would love to hear your data, your perceptions on 
this. And rest assured that this is the Commission that is 
keeping that on the forefront and the Chairman has--as he 
stated--for many years continued to do that.
    I think, as I said, while I would not tell you--and I know 
you are experts in this field, the people in this room, I would 
not tell you the human rights situation is better in China, but 
I can tell you that it is being brought up, it is being 
discussed and there is a candor and a willingness to talk. I 
never thought I would sit in the Forbidden City with the 
Premier of China and hear him mention the Dalai Lama and 
clearly try to articulate--that is something new. And again, I 
think it is because folks come here.
    I asked this question when I was in Tibet. I have heard the 
Chairman ask it. We have asked all of you and activists, and 
whoever. I always say, ``Does it help that this Commission 
continues to ask these questions or does it put you in danger? 
'' And they said, ``Continue to ask, continue to bring it up, 
continue to explore, continue to try to find solutions, because 
if you do not, no one else is going to.''
    So I appreciate you all being here and look forward to your 
testimony. Thank you, Chairman.
    Chairman Smith. Thank you, Ranking Member Walz. I would 
like to now ask Trent Franks--Trent is not only the Chairman of 
the Judiciary Constitution Subcommittee, but also Chair of the 
Religious Freedom Caucus that works very hard on religious 
freedom issues around the world, including and especially 
China.
    Mr. Franks?

  STATEMENT OF HON. TRENT FRANKS, A U.S. REPRESENTATIVE FROM 
                            ARIZONA

    Representative Franks. Well thank you, Mr. Chairman. Thank 
all of you for being here. I, quite honestly, do not have a 
prepared statement. I came from another gathering, but if I 
could start by saying that I am in violent agreement with 
everything that Chairman Smith said. I do not know how I could 
possibly construct a more compelling commentary.
    He is not only a friend, but this man is a friend to 
humanity. He is committed to try to see every last one of God's 
children made whole on the miracle of life and grow up in 
freedom and pursue their dreams. It is not a new idea, but he 
articulates and pursues it in such a wonderful way.
    I continue to be extremely grateful to this man. He has 
been a hero to me forever. I will stop there.
    I wanted just to--from my own perspective--say that some of 
us have worked on this gendercide issue within our own country. 
Even in America now, sex selection abortion has begun to grow 
and Mara is here today, some of the work that she has done has 
been the basis of work that we have tried to pursue to protect 
children in this country.
    There is sort of a dialogue going on in the country about 
``what war on women? '' I don't know of anything that is a more 
overt war on women than killing them simply because they are 
female, because they are a little tiny woman.
    I do not know how it gets more dramatic than that. When 
there is no other purpose but to say, ``No, this is a woman or 
this is a little girl, and that is not what we wanted.''
    It is especially difficult for me because I have a little 
girl. I am reminded when she was three-years-old, we used to 
watch videos together and we clicked on one that was sort of an 
accident and it was a little boy playing a piano with his feet 
because he had no arms. It was extremely moving.
    I thought, well, this is a teaching moment. And I said, 
``Look at that baby. He is playing without any arms. Is that 
not amazing? '' She said, ``But Daddy, he does not have any 
arms.'' And she was wet-eyed and broken. She saw something much 
more real than I did.
    I saw a little fellow that had overcome the odds, and that 
was a victory all by itself. She saw another little human being 
that did not have any arms. And she said, ``Daddy, we have just 
got to help him. We have got to get some arms and give them to 
him.''
    I said, ``Well baby, there is not any extras that will fit 
on him.'' And she said ``Would one of mine fit on him.'' And I 
said ``You want to give him one of yours? '' And she said, 
``Yes, Daddy, because he does not have any arms.'' In other 
words, each one of us would have one.
    So the teaching moment was for me because my little girl 
saw another little human being that did not have any arms and 
she was willing to give him one of hers. When we have that kind 
of moral impulse in our souls and hearts, that is when we will 
finally achieve what this miracle of human life and living on 
this Earth is all about.
    I know that that is the goal--at least moving toward that 
goal with this hearing today--and of the many people that have 
gathered here today. I am--for whatever reason that is a 
strange thing to say--but I am so proud of all of you; you 
know, that you would have the courage to come here and take the 
time out to speak on something of this magnitude, where we are 
killing little girls by the millions simply because they are 
little girls.
    If that is not wrong, nothing on Earth is wrong. God help 
us to hold to that reality. I would only say to you in closing, 
I think some day--as has been said in different ways before--
there will come a time when our children will ask us, ``Well, 
where were you? Where were you when they were killing little 
girls just because they were little girls? '' My little girl 
may be asking me that someday, Chris, Mr. Chairman, and if she 
does, thank God because of the work that is being done here 
today, I will have an answer.
    So thank all of you very, very much. Let us not quit until 
we win. It is not over until we win. Thank you.
    Chairman Smith. Commissioner Franks, thank you very much 
for that very eloquent statement and for all of your work on 
human rights, especially trying to rescue the girl child.
    I would like to now yield to Commissioner Pittenger who has 
also a lifetime of commitment to defending religious freedom 
and promoting the Gospel, having worked with Bill Bright for so 
many years--a man that I greatly respected and do as well as 
for Bob Pittenger.

STATEMENT OF HON. ROBERT PITTENGER, A U.S. REPRESENTATIVE FROM 
                         NORTH CAROLINA

    Representative Pittenger. Mr. Chairman, I would carry your 
briefcase anywhere you want to go. You are my hero.
    Last week Charlotte hosted the Ambassador from China to 
celebrate Chinese New Year. The Governor was there, the Mayor 
was there, I was there, we spoke.
    My comments at that meeting which was basically a trade 
meeting between the Chinese Chamber of Commerce and our efforts 
to introduce greater trade with China, related to the 
imperfections of our country and an honest dialogue with China. 
I spoke freely about the concerns that I had with human rights, 
religious liberties, freedoms of conscience that are pervasive 
throughout China.
    As I spoke in honesty about our own country--and as you 
look at our TV and you see the violence, and the drugs, and the 
racial issues, and on and on--we are not a perfect country. 
That does not keep us from having an honest dialogue with 
something that is very critical. To that end, I would like to 
offer these formal remarks.
    The Chinese Government has shown a blatant disregard for 
the basic human rights of women. This egregious attitude has 
magnified the underlying preferences of the traditional 
patriarchal Chinese society through birth control policies and 
propaganda resulting in a society set against women and 
responsible for the systemic killings of millions of baby girls 
annually through abortion and infanticide.
    China's two-child policy does little more than their 
previous one-child policy in combating this detrimental mass 
prejudice against daughters.
    Previously, under the one-child policy a family having a 
daughter as their first and only child may have felt strong 
pressure to take immediate drastic measures to avoid having or 
keeping the baby girl. Under today's policy, a family may have 
two children, but societal pressure to have all or at least one 
son is no less great.
    While a family may feel less pressure to kill or abandon 
their first born daughter they would have under the one-child 
policy, many families under the new policy may still resort to 
infanticidal practices in an effort to have sons, particularly 
when a family has already had one daughter.
    China has officially banned the sharing of a baby's sex to 
expectant parents by doctors and caregivers. However, there is 
a vibrant underground market of illicit clinics which readily 
provide this information to those worried that they may be 
carrying an unborn little baby girl.
    The long-term demographic, humanitarian, and economic 
consequences on China's population control policies are complex 
and they are widespread. Today, men outnumber women by nearly 
34 million in China. Evidence from China's neighbors, Vietnam 
and Korea, clearly show that the long-term effects of 
population control policies are far-reaching and costly to the 
state.
    This imbalance is already fueling human trafficking in 
Southeast Asia as women and young girls from Cambodia, Myanmar, 
Vietnam, and other countries are increasingly trafficked into 
China for forced marriage and commercial sexual exploitation.
    With a rapidly aging population, shrinking workforce, and a 
large cohort of young men who will be unable to establish 
families, China's continued adherence to its population control 
policy not only violates international human rights standards, 
but goes against China's own interest.
    I look forward to hearing from our witnesses today to hear 
their own stories and what actions they are taking to bring to 
an end this horrific atrocity, to what we can do as a Congress 
and a nation to address it. Thank you and God bless you for 
your work.
    Chairman Smith. Thank you very much, Mr. Pittenger, for 
your excellent remarks.
    Let me now go to our distinguished witnesses, beginning 
first with Chai Ling who is founder of All Girls Allowed, a 
nonprofit organization which seeks to expose the injustices of 
China's one-child policy with a particular emphasis on 
gendercide and to rescue girls and mothers from that terrible, 
terrible crime against women.
    A leader in the 1989 Tiananmen Square student movement and 
two-time Nobel Peace Prize nominee, Chai Ling escaped from 
China and received her MPA from Princeton and MBA from Harvard.
    I would say I remember when she first came to Capitol Hill 
and received a hero's welcome. She was one of the most wanted 
student activist in all of China. The government, the police 
wanted her in one place and that was in jail. Thank God she was 
able to escape and tell the story.
    I remember in this building across the way in 2172--the 
Foreign Affairs Committee downstairs--you could have heard a 
pin drop when she spoke about what the students were trying to 
achieve and also simultaneously the brutality that she and 
fellow students suffered as a result of that dictatorship's 
horrible, horrible misdeeds those days and into the following 
weeks.
    She is the founder of Jenzabar, a company that provides 
higher education software management solutions, and a cofounder 
of the Jenzabar Foundation which supports the humanitarian 
efforts of student leaders. Chai Ling is also the author of ``A 
Heart for Freedom,'' a memoir detailing her journey from a 
fishing village in rural China to Tiananmen Square and then, 
thankfully, here to America. She has never ceased in telling 
the story and her organization, as we will hear, has literally 
rescued the girl child from what would have been death because 
she was a girl.
    We will then hear from Mara Hvistendahl, a journalist and 
author of ``And the City Swallowed Them'' and ``Unnatural 
Selection: Choosing Boys Over Girls and the Consequences of a 
World Full of Men,'' a book that I have read. I thank her for 
that. It was very heavily documented and provided extraordinary 
insights.
    She is a contributing correspondent at Science and a 
founding member of the writers' cooperative Deca. She also 
writes for the New York Times, the Wall Street Journal, the 
Atlantic, Popular Science, and other publications.
    Her 2011 book, ``Unnatural Selection: Choosing Boys Over 
Girls,'' on prenatal sex selection and the gender imbalance it 
has produced in Asia was a finalist for the Pulitzer Prize and 
the Los Angeles Times Book Prize. For eight years, she covered 
science, politics, and other issues in China. She now lives in 
Minneapolis.
    We will then hear from Julie Ford Brenning who is the 
Director of Research for Give Her Life, a nonprofit 
organization seeking to end gendercide via social enterprise in 
Asia.
    At Give Her Life, she has created the largest database in 
the world solely devoted to the sex ratio at birth in Asia. 
Julie graduated from Brigham Young University with a degree in 
political science and received her Master's Degree in Asian 
studies from the University of Utah where she studied the sex 
ratio at birth in China.
    She has lived in Beijing as well as Taipei and resides with 
her husband and son in Logan, Utah.
    So Ling, if you could begin.

 STATEMENT OF CHAI LING, FOUNDER, ALL GIRLS ALLOWED--IN JESUS' 
                      NAME SIMPLY LOVE HER

    Ms. Chai. Yes. Chairman Smith, thank you again for hosting 
numerous hearings like this to shine light on the most 
important human rights issue on Earth today. Thank you, 
Congressman Pittenger, and Congressman Walz, and Congressman 
Franks. Your unity and presence gives hope and encourages 
continuing to carry out the work the Lord has set forth for us.
    I want to share with you how your important voice has made 
a difference through a few testimonies and that we have 
experienced during your hearings alone. Then I would move on to 
talk about what needs to happen next.
    As many of you may remember, on April 30, 2015, all of you 
here at Congress--Chairman Smith's hearing on China's one-child 
policy--during that hearing, I testified that ending the one-
child policy is not up to the Chinese Government, but up to 
God. We all ended that hearing with a prayer.
    Five months later, on October 29, 2015, China indeed 
declared the ending of the most brutal one-child policy. It is 
something that has been ongoing for 35 years and killed over 
400 million babies. Nobody even thought it was possible that it 
could come to an end, but God brought it to an end. I believe 
today God will do something even more greater, that is ending 
gendercide.
    You may also remember in May 2012, when Mr. Chen Guangcheng 
was pushed out of the American Embassy in Beijing. His life was 
in grave danger. Chairman Smith, you hosted the second urgent 
hearing--we prayed and declared his freedom. Four days later he 
was released from China and landed in the United States in New 
York City. I will show the pictures of him.
    You may also remember in December 2011, when a woman was 
put into China's ``black jail'' with her nursing child and her 
70-year-old mother. We prayed for her safety and freedom. We 
learned later on--12 hours later--she was released from prison 
on a dark night and was dumped into a crossroad somewhere 2 
hours away from Beijing.
    Little did we know, she was still determined to petition 
for justice. She went right back to Tiananmen Square to 
petition again in the morning and she was thrown into prison 
again. However, the prayers and fasting were continuing in the 
United States until she was released again.
    So what I want to say here is, before I came to know the 
invisible God, each hearing was a drag and was a struggle for 
me. We would be reporting these awful human rights violations--
each time triggering our own memories and PTSDs [post-traumatic 
stress disorders]--and walking away seeing very little got 
done.
    However, when I came to know God through Jesus Christ after 
your November 2009 hearing, each hearing has become a new and 
different experience. My eyes were opened and I now experience 
this is not just another hearing about facts, about hopes, and 
about asks. It is also a place of congregating with saints both 
here and also the many that are watching right now through the 
webcasting, at our church--our elders prayed this morning.
    It is a place to make a declaration. It is a place to make 
a prayer. It is a place to make a transaction with God. When we 
pray together and agree in unity and we believe, we will see 
powerful transformations.
    That is why I believe God and the holy angels and hosts are 
listening intensely and watching along with all of the staff 
and even the Chinese Government's staff. I believe He will 
honor us as we testify according to His will and we will be 
given what we are asking for. When we seek, we will find. When 
we knock, the door will be opened. These are the Scriptures He 
has promised in so many areas in the Holy Bible.
    Today I am asking boldly in faith for the leaders in 
America, the leaders in China, and the Almighty God to bring a 
swift end to gendercide, to save every little precious girl, 
simply because they are girls. And to make China have an all-
children-allowed policy, and an all-girls-allowed policy right 
away.
    These statistics on gendercide in China show the picture--
referring to slide 9--five baby girls born for every six baby 
boys born. As many of you have mentioned, China indeed has a 
massive gendercide going on, coincided with the brutal 
enforcement of the one-child policy. The most obvious thing is 
for every sixth girl that was supposed to be born, number six 
would be killed. The number six boys were growing up without 
wives to marry.
    So China today has, reportedly, 37 million men that will 
not have wives to marry. There are massive consequences for 
these kinds of gendercide issues. There are links to increased 
sex trafficking, rape, prostitution, and overall crimes. China 
alone conducts 60 percent of the worldwide sex trafficking.
    Historically, a surplus of young men has led to unrest and 
potentially global wars. There is data stating World War II era 
Japan and modern day Afghanistan and Pakistan also experienced 
a bachelor boom and unrest.
    So this is not just the war against young baby girls. It is 
a war against humanity. It is a war against world peace. So it 
is that important. That is why we are here and asking for 
change and asking for an end to these brutal crimes.
    In China, gendercide has two causes. The government's 
population control policy and the people's bias and actions 
both contribute to conducting gendercide. So, therefore, 
gendercide needs to be taken down on both fronts. A new way of 
life and gender equality harmony needs to be planted and built 
up in every level of society at the same time.
    As the Scripture guides us today, ``See, today I appoint 
you over nations and kingdoms to uproot and tear down, to 
destroy and to overthrow, to build and to plant.'' Jeremiah 
1:10
    So the taking down and the building up needs to take place 
at the same time. These two cannot be separated. So because of 
that, our recommendation for the policy would be the two-child 
policy needs to be replaced by the all-children-allowed policy 
immediately. That will end the killing of the deemed illegal 
children. But an all-girls-allowed policy and culture then 
needs to be put in place and promoted nationwide as soon as 
possible. This will help build up a culture that welcomes girls 
and cherishes women.
    I want to say that the data has shown there is a steady 
rise of the gender imbalance along with China's implementation 
of the one-child policy. So in 1979, right at the beginning of 
the one-child policy, the ratio between boys and girls is 106 
to 100. By 1988, it rose to 111 boys born to every 100 girls. 
By 2001, it reached up to 117 boys versus 100 girls. By 2010--I 
think 2012, it reached up to 119 to 100.
    So there is direct correlation between the continued 
growing gender imbalance gap, versus enforcement of the 
population control. That means even though we are celebrating 
the amazing, awesome victory God has done through ending the 
one-child policy, the two-children policy will be just a 
continued perpetuation of--will continue to enlarge these kinds 
of gender gaps and will be continuing to hurt the girls and the 
mothers.
    Other data also showed that along China's maps, in the area 
that the one-child policy has been most strictly enforced, the 
ratio between boys and girls is rising to be 130 boys born for 
every 100 girls born. The other more lighter blue area where 
there is less strictly enforced--again the gender balance, a 
much more normal, close to normal ratio. So there is another 
confirmation that the population control policy is a direct 
cause for China's gendercide and therefore, needs to be 
abolished altogether.
    Most recently we celebrated another great victory from God 
who blessed China to allow the hukou residence status reform. 
This would allow 13 million ``extra'' children who did not have 
resident status, did not have hukou, who could not go to 
school, who could not have ID, who could not travel, the 
privilege to have passports now will be legal. So this impacts 
90 million to 100-plus million family members. This is another 
great, wonderful thing that God has done, and we just hope--my 
hope and prayer for this one is it will not become a corrupted 
and punitive process toward families who are in the process of 
getting hukou. And will not make them so unaffordable to pay 
and to get their ``extra'' children legal.
    So I have one more argument against the two-children 
policy. That is this policy achieved very little for China's 
population control objectives. As we see from other neighboring 
countries through the World Factbook that the replacement rate 
around South Korea is 1.25, in Japan it is 1.4, in Singapore it 
is at .01, and Taiwan is 1.12. That means for the family who is 
married in China that even the two-child policy is equivalent 
to the all-children-allowed policy already because they--
without much encouragement--they most likely will not exceed 
that cap.
    However, for those women and young teenage girls who 
today--every year over 4 million of them have to go through 
abortions because they do not have a legal birth permit. They 
can only obtain it through a marriage status or certificate. 
The two-child-policy still remains to be a death sentence 
against their unborn children. It is still an order of 
gendercide against their bodies. That is every year, 4 million 
young teenage girls and mothers that need to be rescued and 
helped. Therefore, the two-child policy has to be abolished 
altogether, immediately, and replaced with the all-children-
allowed policy.
    As of China now--not too many babies are being born, but 
too few babies are being born, especially too few baby girls 
are being born. A recent Wall Street Journal, in December 2012, 
had done a very good analysis and said, ``The previous 
generation fears a population explosion, but for today's global 
economy, the problem is just the opposite. Falling fertility 
rates and aging workforces will plague the developing world. 
The race is on for innovative solutions on the world factory 
floor. China will soon confront a serious labor shortage, 
forcing scores of western branches to remake their 
operations.''
    So China will see--reap its own consequences of the policy 
if they do not do something quickly and immediately. So all of 
this data points to the all-children-allowed policy needing to 
be started right away. But even when they start that, this 
alone will not end gendercide.
    By ending gendercide, the all-girls-allowed policy needs to 
be put into place and be implemented right away. So we 
recommend to implement that in four areas.
    One is to end gendercide during a baby girl's birth. 
Another one is ending gendercide during a girl's childhood. A 
third one is ending gendercide in marriages. The forth one is 
ending gendercide in sex education and purity before marriage 
teaching. Again, we believe with God all things are possible.
    I am going to move on to talk about some of the experiences 
our workers in China--we have piloted this baby-shower program. 
We have found amazing, remarkable results that can indeed end 
gendercide.
    The baby-shower program was modeled after the American 
tradition to basically show fellowship and gifting and welcome 
to expecting mothers. In this situation our church--believers 
went around to the rural areas to find mothers who were 
expecting baby girls and under oppression from their family and 
environment to welcome them.
    This picture--they took when she was pregnant with her 
girls. There was an accident after--even though she already had 
a forced sterilization operation, her whole family was upset, 
her husband wanted her to abort, but when we shared God's word 
with her, she decided to keep the baby girl. Later on the baby 
girl did indeed come to life and the whole family rejoiced and 
came to faith.
    So in the past two years we were finally able to get some 
decent data. So each year over thousands of--almost 4 to 5 
thousand times all of these families are being visited by our 
local workers. We have 870 families being reached. So in 2014, 
more than 200 families and babies are being served, and 37 baby 
girls are being rescued from forced and coerced abortions. In 
2015, similar results have been shown. In this situation, 50 
babies were rescued.
    What we found is among all of the babies rescued from 
forced and coerced abortions, there is an alarming ratio of 2 
to 1. That means for every two baby girls we rescued, there was 
only one baby boy rescued. So basically, people are aborting 
their baby girls at twice the rate of aborting their baby boys.
    This is a very random sample of the families we visited. 
There is not a whole agenda thing--only pick girls or only pick 
boys, and they end up helping both boys and girls. We realized 
when we offer this baby-shower program to meet the expectant 
mother when they are pregnant and at high risk of aborting the 
babies, we can help reduce the gender ratio. In 2014, for every 
100 baby girls being born, the boy's ratio becomes 109. So that 
is below the 119 boys to 100 girls' ratio. If we do not rescue 
those 37 babies, the ratio would jump to 124:100. That is 2014 
data.
    In 2015, the ratio becomes 118:100. But if we had not 
rescued those baby girls and baby boys, the ratio would jump 
back to 126:100. That means for every 126 baby boys born, only 
100 baby girls will be born, 26 baby girls would have been 
aborted.
    So this gendercide practice is very pervasive in China. 
This program to really intercept the families when they are 
about to make those critical decisions can, indeed, help to 
save lives and end gendercide.
    The second area of gendercide took place during China's 
massive industrialization. Over 270 million workers are moving 
off of the farm and going to various cities. By doing so, they 
left their wives and their children behind. Today China has 61 
million ``left-behind'' children. These kids tend to suffer 
very low self-esteem and many girls suffer physical, emotional, 
and sexual abuse, potentially.
    As we are speaking right now, China is getting ready for 
its Chinese New Year and China is having the largest migration 
on Earth. This is a good time to really talk about the family, 
what family should be, for the government to make policies to 
encourage the farmers to bring their families to cities. So the 
reason hukou reform is a very good one--we encourage them to 
continue to create educational opportunities for these children 
to be brought back, brought over together with the family--when 
they move, they move together as a family and the husband will 
take their wives with them.
    Our work, again, is to try to combat this massive problem 
out there and we see when we visit these ``left-behind'' 
children to show them God's love and words and give them 
fellowships, we see great transformation. So, again, this 
program is to offer family visits, offer summer jobs, offer 
gathering field trips. That, again, can make a difference in 
lives and souls saved and their dignity being restored.
    And the third gendercide takes place in marriages. This is 
another example of--a lot of times these marriage issues are 
intensified when a birth issue, especially a baby girl birth is 
coming on the horizon. This Mrs. Gui Xiu is an example. She was 
expecting her fourth child. It came out to be a girl.
    The husband was so mad he not only forced her to try to 
abort, but didn't succeed. Then when the baby was born, for 
four or five days he would not even look at the baby. He was 
forcing the mother to give away the baby. The mother was 
crying. The whole family was in distress.
    Again, our worker took a whole day bus ride to come and 
visit this family, share the word of the Lord and the husband 
just listened. Finally, he broke down. He said, ``Do you know I 
had a boy and he died when he was 12. The whole family took on 
such debt. That is why we try to have more children so I can 
hope to have another boy to replace my lost son. That is why I 
thought I could not afford to have the fourth girl.''
    When he realized God made girls and boys in his image and 
they all are equally important and valued, he burst into smile 
and said, ``What would you name my daughter? '' The worker just 
said ``Rebecca.'' That was the name in the Bible of Isaac's 
wife.
    So this family, again, was reunited in the Lord. He came to 
the Lord. Now they are living happily. I want to say happily 
ever after, but they are trying to go for another pregnancy, go 
for another boy. So their work is not quite ended, it 
continues. [Laughter.]
    A fourth area of gendercide is really endangering youth. 
China tends to have a really conservative sexual view toward 
sex and purity. With the reform and the openness, the Western 
culture came in. Now this whole generation is very confused and 
there is very little protection and education.
    We are going to try to pilot the program in 2016 and we 
will report back. But that is contributing to the 4 million 
abortions every year, and so many broken hearts and broken 
souls, and broken lives.
    So I want to conclude my presentation here on this thing 
and invite you to pray with me that God will end--will hear our 
prayers and call the Chinese Government to end the two-child 
policy with the all-children-allowed policy immediately, to 
install an all-girls-allowed policy immediately, and to stop 
oppressing the churches in China because we need the church 
workers like our workers. We had a team of 35 of them may be 
able to visit and save thousands, or a couple thousand 
families, children and families through God, but we need 35 
million people to help us end gendercide through the Lord.
    Currently China's government has regulations that will not 
allow NGOs [non-governmental organizations] to register with 
religious affiliation. We want that regulation to be changed. 
It is not the law. It is just a regulation. So we can work and 
serve legally. Some of our workers were so harassed by the 
police that they quit. So our 2015 work suffered greatly.
    Again, I would like to ask the U.S. leaders to help us to 
voice and to talk so we can work and serve with dignity and 
with peace. Again, the last word to leaders of China and also 
America--as wise King Solomon said, ``By justice a king gives a 
country stability . . .''
    I know there is no greater thing China wanted, to have 
stability. Now we are showing them, by ancient wisdom, how they 
can get it by administering justice.
    So having said that, in Jesus' name I pray and declare and 
trust His will to be done. Amen.
    Chairman Smith. Chai Ling, thank you very much for that 
very comprehensive and moving testimony. Like you, I would not 
be here doing what I do if I did not believe in the power of 
prayer, God's mercy and His abiding love. I do think prayer and 
works, ultimately, are the only two elements that are necessary 
to bring horrific crimes to an end. So I join you in that 
prayer to end this terrible----
    Ms. Chai. Thank you. I also want to acknowledge my husband 
who has been an amazing support for my ministry, for my work, 
and has been my inspiration here also. He is sitting here, so I 
would acknowledge him.
    Chairman Smith. Okay.
    Ms. Chai. Thank you.
    Chairman Smith. I would like to now recognize Mara 
Hvistendahl.
    [The prepared statement of Ms. Chai appears in the 
appendix.]

 STATEMENT OF MARA HVISTENDAHL, CONTRIBUTING CORRESPONDENT FOR 
SCIENCE MAGAZINE AND AUTHOR OF ``AND THE CITY SWALLOWED THEM'' 
 AND ``UNNATURAL SELECTION: CHOOSING BOYS OVER GIRLS, AND THE 
             CONSEQUENCES OF A WORLD FULL OF MEN''

    Ms. Hvistendahl. Thank you, Chairman Smith, for providing 
me with the opportunity to share my thoughts on China's 
imbalanced population and on the horrible effects of sex 
selection over the past 35 years.
    We are all here because we care about the world's women. I 
appear before you as well as a journalist who spent nearly a 
decade in China reporting on various issues. I spent three 
years of that time investigating the disappearance of nearly 
100 million women from the global population.
    As I detailed in my book, ``Unnatural Selection,'' sex-
selective abortion and other forms of sex selection have spread 
beyond China and India and into countries as varied as Albania, 
Azerbaijan, Armenia, Georgia, South Korea, Taiwan, and Vietnam, 
as well as to some groups in the United States and Canada. 
China is the world leader when it comes to sex selection, but 
it has some factors in common with these other countries, and I 
will explain what those are.
    Sex-ratio distortion is now a massive international issue, 
on the scale of the HIV epidemic in terms of the number of 
lives it has affected. Yet despite the scope of this problem, 
there has been very little international response. I appreciate 
the work that Congress is doing, but globally, the response has 
been disappointing. That is in part because it is assumed that 
China and India alone bear responsibility for what is 
happening. That is not true.
    Currently, there are 118 boys born for every 100 girls in 
China. That sex ratio at birth becomes painfully apparent in 
visiting elementary schools in many parts of China. Go to a 
classroom in many second- and third-tier cities, and you will 
see that there are many more boys than girls.
    While China's population policies have definitely 
contributed to that gap, even as population targets have been 
relaxed and grown a little more lenient, the sex ratio at birth 
has continued to rise. Sex selection is not likely to go away 
under the current two-child policy. In fact, if you look back 
at the past few decades, the sex ratio at birth has steadily 
increased.
    When I began researching my book, I traveled to a county 
called Suining in northern Jiangsu province, an area that was 
once agricultural and is now rapidly industrializing. At the 
time I visited, Suining had a sex ratio at birth of 153 boys 
per 100 girls--an enormous gap that was readily apparent 
everywhere I went. Everybody talked about what was going on; 
they could see the sex-ratio imbalance taking shape on the 
streets and in their neighborhoods.
    Yet Suining wasn't the county in China with the worst sex 
ratio at birth at the time. I simply chose it because I was 
working with a photographer named Ariana Lindquist, who knew 
people there.
    Ariana and I spent a lot of time with the woman whom I call 
Liao Li in my book. She was a strong and independent woman. She 
managed the finances in her family and in many ways called the 
shots. She kept the family cell phone when her husband was away 
on construction jobs.
    Liao Li and her husband sometimes struggled to make ends 
meet, but they were not the poorest family in their 
neighborhood. In some ways they were relatively typical of the 
stage of urbanization that China is in right now. All of those 
factors made me think that Liao Li would be a good guide to 
understanding the sex-selective abortions that were going on 
around her.
    Now over the several days that I spent with her, Liao Li 
was quite critical about the epidemic that had hit Suining. She 
said things like, ``It is stupid to abort a girl when you are 
yourself, after all, a woman.''
    And yet, shortly before we returned to Shanghai, she had 
Ariana and me over for dinner, and we drank some warm beer, and 
partway through the dinner Liao Li stood up and said, ``I 
aborted two girls.'' That threw me for a loop, but as my 
reporting took me to other parts of China and to places like 
Albania and India and Vietnam, I realized that her situation 
was not, in fact, all that atypical.
    Around the world, it is not the poorest people in villages 
who are perpetrating these horrible crimes against women. It is 
the relatively well-off or somewhat educated people who are 
moving to cities. Sex selection starts in wealthy or middle-
class areas and then trickles down from there. After several 
decades of rampant sex selection, China is at a relatively late 
stage of this process, which is why sex-selective abortions are 
now occurring in second- and third-tier cities. In India, sex 
selection started among the elite in Delhi. I will talk a bit 
about how exactly it began there.
    Unfortunately in 2016, sexism is far from dead. A 
preference for boys still exists in many parts of the world. 
Combine that with economic development, which means that just 
as people are moving to cities, new technologies like 
ultrasound emerge to give them access to sex determination. 
Ultrasound is what is used most commonly now, but it is not the 
future of sex selection, as I will explain.
    The third factor is that many of the countries where sex 
selection is common have a history of coercive population 
policies and of abortion being used by women--in some cases 
forcibly--as birth control. This is the case in China with the 
one-child policy, most obviously, but also in Vietnam, with its 
two-child policy, and in several other countries. India, in 
particular, had a very horrible dark period of population 
control.
    When all of these factors are combined--access to new 
technologies, pressure on birth rates, and coercive population 
policies--people end up taking measures to ensure that they 
have a son by whatever means possible.
    So sex selection is therefore a modern problem, but it is 
also a problem for which Western nations, including the United 
States, bear responsibility.
    If you were in Washington debating policy 40 years ago, 
there is a good chance that you would have been asked to 
consider the issue of population growth, which was front and 
center at the time.
    Books like ``The Population Bomb,'' which warned of an 
eminent population explosion, were very popular. Western 
intellectuals were obsessed with solving the population problem 
by focusing on the developing world, where birthrates were 
highest.
    That is where we went wrong. To some extent population 
growth was a legitimate concern, but this kind of single-handed 
and imperialistic focus on the developing world was a supreme 
error.
    Scholars were enlisted in the quest to lower the 
birthrates. It soon became clear that women in many parts of 
the world continued to have children until they had a son. So 
the idea emerged to guarantee them a son on the first try and 
avoid all of those extra births. Never mind that the extra 
births were girls.
    As a science journalist, I am embarrassed to note that many 
of the world's top science magazines featured gushing articles 
on possible sex selection methods at the time.
    Now, what is particularly shocking is that America's 
advocates of sex selection actually considered the horrible 
effects of a world where men seriously outnumbered women. They 
knew that women's rights would suffer, that women would be 
coveted as wives and mothers and traded as chattel, and yet 
they continued to promote sex selection as a population control 
method.
    In the mid-1960s, Sheldon Segal, the medical director of 
the Population Counsel, helped train doctors in Delhi at the 
All-India Institute of Medical Sciences in an early sex 
determination method. A few years later, the institute became a 
site of shocking medical experiments in which doctors brought 
in poor pregnant women and offered them the opportunity to 
determine sex--which in 1975 was revolutionary--and then 
tracked whether or not they aborted based on sex. The doctors 
wrote up the results in a medical journal.
    The same year, the Chinese Medical Journal--which is one of 
China's top journals--published a paper by a group of doctors 
in Liaoning province describing a very similar experiment.
    Not long after that, sex selection took off in both 
countries. And, of course, the one-child policy was introduced 
in China in 1980, which didn't help. I believe that sex-
selective abortion's usefulness as a population control method 
is one reason why the Chinese Government has had little 
incentive to eradicate it.
    Today China is seeing a sharp rise in bride-buying and 
trafficking of women, both for marriage and for sex. So-called 
``marriage agencies'' have cropped up across China to help men 
buy wives. Women are typically trafficked from poor western 
provinces to eastern China. I met several women in reporting my 
book who were brought from rural Yunnan province to Jiangsu 
province to marry men who spoke a different dialect and 
belonged to a different culture. The men might just as well 
have been foreign, so different are these two areas.
    Increasingly, women are also trafficked internationally 
from countries like Vietnam and North Korea to provide Chinese 
men with wives. The U.S. State Department now lists China's 
sex-ratio imbalance as a major cause of trafficking in the 
region.
    Meanwhile, as technology moves forward, we are entering a 
new era of sex selection. Although abortion and ultrasound 
still account for the majority of missing girls, this is about 
to change.
    So-called fetal DNA tests, or blood tests a woman can take 
as early as seven weeks of pregnancy to determine the sex of 
the fetus, recently came on the market. That is really a game-
changer. In the United States these are now widely available, 
and when I had my first child in Shanghai in 2013 they were 
becoming available there as well. I assume that the Chinese 
Government will not allow these tests to be used for sex 
determination, which is technically illegal in China, but much 
like ultrasound, I assume that they will be used for that 
purpose.
    Sex selection is also practiced during in-vitro 
fertilization [IVF] using a technique called preimplantation 
genetic diagnosis. That is something that the United States 
excels in. Assisted reproductive technology is heavily 
regulated in Western Europe and in Australia, but America is 
really the Wild West. Couples from China and India now travel 
to California just to choose the sex of their baby using IVF. 
We need to ensure that these technologies are properly used.
    Sex selection is a major international issue, and it 
demands an international response. As a nation concerned with 
humanitarian causes and as the birthplace of the technologies 
that are now so brutally affecting populations in Asia, the 
United States should play a leading role in combating sex 
selection.
    Congress should urge the United Nations to devote more 
attention to publicizing the impact of sex selection worldwide 
and to pursuing meaningful action to prevent it. Legislators 
should outlaw the use of IVF for social sex selection, or sex 
selection not connected to sex-linked diseases. This is a 
regulation that is already on the books in much of the Western 
world.
    Congress should further regulate the use of fetal DNA tests 
and limit their use to genetic disease or sex-linked disease, 
while also ensuring that they are administered in clinics with 
oversight from a genetic counselor. Last time I checked, you 
could order a kit that supposedly tests for fetal sex online.
    I want to add that the solution to sex-ratio imbalance is 
not to further infringe on the rights of women by limiting 
access to fair family planning--and I mean family planning not 
in the way the Chinese Government uses the term, but services 
that women actually seek out themselves. If we were to ban 
abortion outright, women would suffer, and sex selection would 
not stop. That also does nothing to prevent couples from 
turning to IVF to get a son.
    I believe the solution is to eradicate the population 
control policies, including China's current two-child policy, 
that encourage people to abort girls; to introduce incentive 
schemes tailored to the urban residents who actually practice 
sex selection; and to better regulate new reproductive 
technologies, both in the United States and abroad.
    Thank you very much.
    Chairman Smith. Thank you so very much for your testimony, 
your insights, and recommendations. It gives us a lot to follow 
up on, so I do thank you again and I do have some questions 
when we get to the Q and A part.
    Ms. Hvistendahl. Sure.
    Chairman Smith. Now, Ms. Brenning, please proceed.
    [The prepared statement of Ms. Hvistendahl appears in the 
appendix.]

  STATEMENT OF JULIE FORD BRENNING, DIRECTOR OF RESEARCH AND 
                 CHINA OUTREACH, GIVE HER LIFE

    Ms. Brenning. Thank you. I am grateful for the opportunity 
to present today to the China Commission. I just want to 
dedicate this speech to my daughter, my 10-month-old daughter. 
I hope that she can grow up in a world without gendercide.
    The Chinese ``Book of Songs'' states, ``When a son is born, 
let him sleep on the bed, Clothe him with fine clothes . . . 
When a daughter is born, Let her sleep on the ground, Wrap her 
in common wrappings and give broken tiles to play . . .''
    We know that gendercide is bigger than just the two-child 
policy. The root cause of the sex-ratio imbalance in China is 
the patriarchal kinship system.
    Now let us talk about this. The branches of this root 
include patrilocality or virilocal marriage. For those who do 
not know what that is, that is when a women marries and moves 
in with her new husband's family--the roots also include 
continuation of patrilineal lines, ancestry worship, 
Confucianism's devaluation of girls, expectation of sons to 
provide for the elderly, discrimination in society against 
women and girls, particularly in land rights, and a low 
fertility rate--as we have discussed--caused by the two-child 
policy.
    Now the Care for Girls Campaign is the policy in China to 
curb the sex ratio at birth, but does not fully address these 
root causes whatsoever. The sex ratio at birth in 2000, when 
the policy began, was 119 to 100 and has since digressed to 121 
to 100 in 2010. A decade of this policy in China has done 
little to stop the practice of selective abortion.
    Now, according to my research, I want to share some best 
strategies that governments can take. We all know that the 
consequences of the skewed sex ratio are well-documented. It is 
now vital to address the policy implications and how to 
implement successful government initiatives that will get to 
the roots of the sex-ratio imbalance.
    So from my research, particularly in India, I want to 
present four basic strategies or best practices that 
governments ought to undertake to balance the sex ratio.
    Number one is strict enforcement. So part of the problem 
with these policies is not even that there is a law or the 
wording of the law, but rather its lack of implementation 
altogether. One legislator in India asserted that the poor sex 
ratio, ``. . . is all God's desire. There is nothing we can do 
about it.''
    Unfortunately, I would estimate that most government 
officials do not act upon the laws to lower the SRB because 
they do not believe in the laws, or they simply do not believe 
in the value of women. I suggest that higher-up government 
officials hold local officials accountable for not implementing 
these laws. These officials also ought to be required to attend 
intensive training about the consequences of high sex ratio and 
be educated on the value and empowerment of women.
    Now I want to share an example. In Punjab, India, an 
intensive naming, blaming, and shaming campaign occurred in 
2005. It was headed up by one local official. Because of his 
commitments to the campaigns, the sex ratio was improved to 
above 900 girls to 1,000 boys in 77 villages. Strict 
enforcement is essential.
    Number two, multi-pronged approach. There are campaigns 
going on all throughout Asia--both government and nonprofit--to 
combat this problem. But they are sporadic. They are non-
uniform and they are happening in isolation from one another.
    So I suggest the ``three U's'' of a multi-pronged approach. 
It is really essential. The first one is unity. Areas with a 
unified effort that include NGOs, government funding and force, 
and community involvement show the greatest potential for 
lowering the SRB--which is the sex ratio at birth.
    Number two is an umbrella of methods. As these three 
entities work together, they ought to include an umbrella of 
different methods, such as shaming and rewarding economic 
themes, encouraging better marriage practices, et cetera.
    Number three is uniform. So once these entities begin 
working together, they need to share their best practices and 
come together in a uniformed policy that actually works.
    Now I will share an example. In 2013, in Jaipur, India, 
government officials actually teamed up with civil society 
groups to take action. The campaign involved pregnant women 
volunteers and a police station dedicated solely to reporting 
violations of the law.
    The head of the state intervention unit team--referring to 
the pregnant women and these NGOs--said, ``. . . it is their 
courage that helped our team apprehend medical practitioners. 
They play a pivotal role in our strength.'' These entities must 
work together for things to start happening.
    So the third best practice is effective assessment. In most 
of the government campaigns there is no assessment occurring 
whatsoever. They may keep track of the number of arrests of 
doctors or maybe the number of sonography ultrasound machines 
that are actually sealed within a certain amount of time, but 
there is actually no records keeping track of the sex ratio at 
birth and these intensive campaign areas.
    Now, the Girls Count Act--which you have talked about--is 
an essential part of making sure that every baby girl is 
registered in the China hukou registration system which we have 
talked about, and that Chai Ling talked about. This will 
provide necessary data for effective assessment of the sex 
ratio at birth in these campaign areas.
    Now the fourth practice I want to talk about which I think 
is probably the most important is women involvement and 
empowerment. According to my research--which I have done 
extensively of the China census data at the country level--a 
high sex ratio at birth is strongly correlated in counties 
where women lag behind men in social status, particularly in 
education, meaning--do not get me wrong here--low education for 
women is not necessarily the factor related to the sex ratio at 
birth as many truly believe. It is not. It is actually the gap 
between men and women.
    So I propose that the areas where there is this gap in 
socioeconomic status, there needs to be the target geographic 
areas for policy intervention, not just where women have low 
education. It is how they are treated, vis-a-vis men, that 
makes all of the difference for sex-selective abortion. I also 
know from research that women must be involved in the 
decisionmaking bodies and in the progress of the policy itself, 
and the implementation in order for peace to occur.
    So the ideal threshold--according to research--is at least 
33 percent of women involvement. I find little evidence in 
China that suggests women even come close to the 33-percent 
threshold of the creation and implementation of policies to end 
gendercide. This is a major problem.
    In China, there are many mothers protesting the hukou 
registration system--as Chai Ling brought up--demanding for 
more reform than even what has occurred. Now, when implementing 
the Girls Count Act, I suggest including native women in the 
policy formation and implementation of the Girls Count Act.
    I would like to share an example of why this is so 
important. In Haryana, an all-women panchayat--or a village-
level administration group--banned sex-selective abortions, 
making sure that anyone who participated in illegal practices 
of gendercide are socially boycotted by the entire community. 
They used government monies for intensive campaigns which 
included education for women and banning extravagant marriages 
to minimize dowry expenses.
    These women--all in power--had remarkable success. The sex 
ratio improved from a dismal 569 per 1000 in 2012 to 890 in 
2014. It is only by recognizing the importance of the 
empowerment of women as an end in itself and as a key to 
improving the quality of life for everyone, both men and women, 
that China will achieve a more lasting and effective means of 
achieving this balanced sex ratio.
    I propose that these four best practices be taken into 
consideration: strict enforcement, multi-pronged approach, 
effective assessment, and women-involvement and empowerment. 
These strategies are key to creating and implementing policy 
that will end gendercide.
    I call upon all governments to take action, not just the 
United States, as Mara stated. It is now time for governments 
across China to take part in lifting that little baby girl 
spoken of in the ``Book of Songs'' playing on the ground with 
broken tiles from off of the dirty floor. Clothe her in 
empowerment and give her her rightful place in Chinese society.
    Thank you. [Applause.]
    [The prepared statement of Ms. Brenning appears in the 
appendix.]
    Chairman Smith. That was excellent and again, very specific 
recommendations which helps our Commission and I believe by 
extension helps the Congress.
    Let me throw out a few opening questions and whoever would 
like to answer, maybe all of you, all of them, whatever.
    On the issue of empowerment--if I could start off with that 
one--and I couldn't agree more. I have been traveling to 
China--I have been in Congress 36 years, and I have been there 
many times on human rights trips. I often meet with women in 
very, very high positions. Often they travel here.
    Downstairs in the Foreign Affairs Committee room, we had a 
bilateral meeting with members of the People's Congress and 
Madam Fu, who heads up the foreign affairs effort for that 
chamber--it was a very friendly conversation at first. Then I 
raised the issue with her that according to the CDC--and this 
is the Beijing Chinese Centers for Disease Control--about--I 
did not say that right away, but I said there is an estimation 
of upward of 600 women per day who commit suicide in China 
every single day.
    It is absolutely the reverse of suicides of male/female 
like nowhere else in the world. I do believe some of it, maybe 
much of it, maybe an overwhelming number of it is attributable 
to these coercive policies. I asked her what her view was on 
that, how does she explain that? Not only did she say I wasn't 
telling the truth, she demanded documentation which my staff 
ran upstairs and got the State Department's Country Reports on 
Human Rights Practices. I flipped to the page and I said, ``It 
is right out of your own CDC. As a woman and as a leader, where 
is the empathy for those women who are broken? ''
    On another trip I traveled and met with Peng Peiyun, the 
woman who ran the family planning program for years--the 
coercive one--who was celebrated at the Cairo Population 
Conference as a great leader, even though the oppression that 
she has unleashed upon women is without precedent--I believe--
anywhere in the world. I asked her about the women who are 
dying, the clinical depression.
    On another trip I met a woman in the state family planning 
counsel about the New York Times story that detailed a woman 
who was clinically depressed and she said, ``Oh, it's just lies 
put out by the New York Times.''
    Peng Peiyun said that the UNFPA is here, and they find no 
coercion. They give us a clean bill of health. By the way, who 
are you to even raise this issue in Beijing? It is a matter of 
sovereignty, which is what all dictatorships do when you raise 
human rights questions, going back to the Soviet Union and 
every other one I have ever visited.
    So I agree with you that women need to be empowered. But 
how in a Chinese dictatorship--the likes of which we have now--
when women and even more men are a part of the repressive 
apparatus do you break through that? Even when I went with the 
head of the Three Self Church in China, who happened to be a 
woman at the time--I asked her about this and I was quoting 
Scripture which is full--Old and New Testament--with the 
concern for the disenfranchised. She almost just like, with 
talking points, went through why the one-child-per-couple 
policy was so important and disagreed that there was any 
disproportionality of males and females. This was about 20 
years ago on that one--that there is no gender imbalance.
    Let me also ask, if I could, Mara, your book--who reads it? 
I have read it. Many people who care about Chinese human rights 
have read it.
    But we have large numbers of universities that have 
Confucius Institutes here. It seems that they are very 
selective of human rights books, magazines, articles and the 
like. They will never read this hearing in a Confucius 
Institute setting.
    In China many of those foreign campuses, including NYU--I 
mean, is your book even allowed to be read, discussed by 
students and is it banned in Beijing? Then, again, there are so 
many Chinese students here that if they were to read your book, 
read Chai Ling's book, which I have been amazed how many people 
that I visit with that are students, especially those who come 
from China on delegations that the State Department puts 
together, have no idea what Tiananmen Square was.
    Of course, Google enabled that big time. I have the Global 
Online Freedom Act which I have been unable to get passed into 
law, but when I did the first hearing on that in 2006, we had 
Google, Microsoft, Cisco, and Yahoo all testifying. I pulled up 
Google, the Chinese version. You put in Tiananmen Square. There 
was not one hit of what happened with the tanks, with tank man 
and all that. It was all about happy faces, taking photographs, 
and just being tourists.
    So they are fed a whole big lie. Does your book get read by 
the students who are here visiting? Do local colleges say, 
here--here is something in universities? Does NYU have copies 
of your books on hand? And then also the empowerment issue----
    Ms. Hvistendahl. It is certainly assigned in the United 
States. I have not heard of it being assigned in China. It has 
been translated into Japanese and Korean, so there was interest 
in other countries in the region.
    I do not know. If you want to go out and promote my book, I 
will not stop you. I can tell you that. [Laughter.]
    Chairman Smith. Thank you.
    Ms. Brenning. To get to the empowerment of women issue. 
That is a tricky one. I would say my answer would be they need 
to start with dismantling the patriarchal kinship system. It is 
not even in their priorities at all. I will give very explicit 
suggestions--how they need to begin doing that.
    Then, second, I think that there needs to be government 
training of these officials, intensive government training.
    Then also, as far as empowerment, the Care for Girls 
Campaign is currently sporadically giving money to girls for 
education kind of randomly. They need to give it--resources and 
money based on their social status, vis-a-vis men, and not just 
sporadically giving out money. They need to do it in a way that 
is research based, and they are not right now.
    I have several suggestions for dismantling the kinship 
system. You know, as far as the Care for Girls Campaign needs 
some reformation. Right now they have a lot of slogans posted 
all over. ``Girls are awesome.'' They need to get rid of those, 
really, and get serious about this problem and as I said, do 
intensive training of government officials starting with the 
very top.
    I believe that they--government officials--need to be the 
example. I would estimate that some of them have participated 
in sex-selective abortion themselves.
    Also, I think that they need to give tax breaks or rewards 
to couples and families not living in patrilocality and 
virilocal marriage. That is not happening right now.
    They need to give equal portions of land to women and 
inheritance rights to women. That is essential. You know this 
is not going to happen overnight, but they need to be serious 
about dismantling it. And obviously, they need to get rid of 
the two-child policy altogether.
    So those are a few of my suggestions as far as where to 
begin. They need to really be serious about the kinship system, 
which they are not.
    Chairman Smith. I was in Baku twice in the last three 
years, Mara, and I mentioned your book to Aliyev who was the 
president, because Azerbaijan has a very serious sex selection 
disparity because of sex-selective abortion. He listened, has 
done nothing. But I want you to know, I do not know if he ever 
heard anybody talk about it--I didn't have a copy to give him, 
but I certainly mentioned it to him and quoted from it.
    I quoted from your book on the Floor a few times. I think 
it is worth repeating, and this would be the context of the 
question--I have found--and you know it better than me, all 
three of you--China is so hypersensitive about outside 
influence, U.S. especially; U.K., European in general; 
Japanese, of course. Yet, as a matter of fact, if you look at 
their draft law on overseas NGO management, they are throwing 
the book at NGOs' capability to do anything, especially if 
there is a link with an overseas organization.
    They do it with faith, the severance of anything dealing 
with the Vatican and other outside Christian organizations, 
which they see as ``invaders.'' This hypersensitivity does not 
seem to carry over into the whole population control mantra 
which they swallowed like the Kool-aid--we all remember that 
terrible scene when all those young people died. They swallowed 
it hook, line, and sinker.
    You made an excellent point in your book when you said, 
``By August of 1969''--this is your book, Mara--``. . . when 
the National Institute of Child Health and Human Development 
and the Population Counsel convened another workshop on 
population control, sex selection had become a pet scheme. Sex 
selection, moreover, had the added advantage of reducing the 
number of potential mothers for reliable sex determination 
technology could be made available to a mass market. There was 
a rough consensus that sex-selection abortion would be an 
effective, uncontroversial, and ethical way of reducing global 
population.''
    Now, that came from this city, from Washington, DC, the 
U.S. Government. As you know, the Indian Government picked up 
on it, big time, as did the Chinese Government, even though 
they have not even a speed bump law to stop sex selection--
ultrasounds from determining the child's gender.
    Why is it that they do not see this as having come from 
America, since they again are hypersensitive about that? Yet, 
they have embraced it to the absolute detriment of the girl 
child, women, the family, and even their society now because 
the trend line is awful economically and in every other way for 
China.
    Ms. Hvistendahl. The issue of how this notion became 
ethical in the first place--well, part of it was because so 
many atrocious methods were being tried at the time. There were 
6 million forced vasectomies in India. So in comparison, the 
attitude of many population control proponents toward voluntary 
sex-selective abortion was, ``Well, at least we do not have to 
force it on people.''
    But I believe that one of the reasons that idea was even 
acceptable at the time gets back to that notion of empowerment. 
Not that many women were involved in those discussions, and 
certainly not any women from the countries that were actually 
affected by what happened.
    There are women in many positions of power in China, but 
they are not the ones that are really calling the shots. So if 
you look at the Central Committee of the CCP, for example: 
China rates abysmally for national leadership in terms of the 
number of women there. Taiwan, of course, just elected its 
first female president. That is a great thing. That can help 
make a difference.
    Julie's suggestion that pressure be put on local leaders is 
a good one, but that order has to really come from the top. 
China has what is called the yipiao foujue system of 
accountability on certain key issues, which essentially means 
for local officials that it's one strike and you are out. That 
was one of the reasons that the one-child policy became such a 
priority. Local leaders were evaluated based on whether or not 
they performed on birth targets.
    If having a balanced sex ratio could become one of those 
targets as well, that would maybe help. One of the reasons 
there has been some progress on environmental issues is that it 
was recently made a top governmental priority. So that is a 
good suggestion.
    Ms. Chai. I am in awe and also honored to testify along 
with these wonderful--Mara and Julie, thank you. Your presence 
makes us feel that we are not alone, we are together, and thank 
you for your support.
    As I am listening to what it takes to really cause the 
leadership in China to change, the mindset to empower women and 
give women authority, to really care for the balance of gender 
ratio, I can't help but think this is ultimately a spiritual 
issue. The reason--how we can be so blinded to the point that 
we are deliberately and systematically not only killing a baby 
girl, we are killing a mother, we are killing a wife, we are 
killing a family and generation after generation--at the end of 
the day--the root of humanity.
    Yet, we do not think twice about it. We think this is 
normal. This is something we should do. This is something we 
ought to do. So many people are so blindsided. They are gung-ho 
to move forward to execute that. That caused me to think of 
what it really takes to change. It led me to the Bible in 
Chapter 3 in Genesis when humanity fell, when we betrayed God, 
and there were three curses put on humanity.
    The first one is the battle between the serpent and the 
woman--the enmity between the evil serpent and woman. The 
second curse was the curse on woman--she will suffer during 
childbirth. A lot of people thought there was just normal 
childbirth, but I think it is much more related to all 
reproductive love, romance, relationship sufferings. The third 
one is the relationship battle between man and woman. She will 
desire him. He will rule over her.
    That is--unfortunately, the world was set in motion into 
the fallen world, so gendercide becomes one of the 
manifestations of those curses. But we also know the good news 
is Jesus had come 2,000 years ago, and He went on the cross for 
us, redeemed us, and broke that curse. He, Himself--became a 
curse, therefore, we can have equality for women; for men and 
women. That is our hope, that gendercide can and should and 
will come to an end.
    When the Chinese people are starting their minds to be 
renewed by the truth in God and how He views man and woman--He 
created each life fearfully, wonderfully in His image and He 
made them equal. He made man and woman's ultimate purpose to 
find each other to become one, to--full glory of God and how in 
His definition woman is not some subordinate girl that needs to 
be put on the floor, play with tiles. Rather woman is the 
ultimate helper of the man, the future husband.
    He--God--said, commanded, whoever loves his wife, loves 
himself. What that means to say for those men who killed the 
baby girls, the future wives and mothers, they are saying when 
they are killing her, do they really love themselves? Who are 
they really killing? They are killing themselves.
    So these are the truths that need to be shared. I do agree 
all of those budgets--as Julie said--going into the care for 
girls should really be promoting the biblical view and truth 
about the equality and harmony of man and woman. When that 
happens, I do believe that will be an ultimately profound 
change, and that change is happening as our workers are seeing 
on the ground as we continue to pray. God also said, when he 
opens our eyes, what is with us is much more than what is with 
the other side. So it is only one-third of the angels fallen. 
So there are two-thirds still with us. So we are in the 
majority. [Laughter.]
    Do not give up hope.
    Chairman Smith. Never. Let me just ask if I could, then I 
will yield to Mr. Pittenger. I mentioned earlier that I am the 
author of the Trafficking Victims Protection Act. I have worked 
on that issue for over 20 years, worked on Chinese human rights 
issues since I got elected.
    I mention that because I have been raising with the TIP 
Office--the Trafficking in Persons Office, about 55-person 
large--for years they need to look at sex-selection abortion as 
a driver for sex trafficking. When Mark Lagon was the 
Ambassador at Large, he did a thorough look at that, along with 
his staff and came down with very strong language in the TIP 
report. Ultimately, China was classified as a Tier-3 country, 
an egregious violator.
    It was an automatic downgrade because they had been on the 
watch list for four years, but they should have been 
downgraded. They got waivers from the Obama Administration, 
which they should not have gotten, and then as soon as the year 
was over, they were upgraded.
    Now Reuters did a--they should get the Pulitzer for it or 
any great prize for investigative journalism that is out 
there--did a series of investigations about the TIP office 
making recommendations for grades. Remember, if you get a Tier-
3 in trafficking--there are four grades, three plus watch 
list--you can be sanctioned, and the sanctions are significant.
    Well, they looked at what the TIP experts were recommending 
at State, versus what the bureaucrats, the assistant 
secretaries, right up to the Secretary of State, himself, did 
in terms of those designations. They found 14 instances--there 
were 17 disputes--14 instances where the experts on trafficking 
said, this is a Tier-3 country. Oman, India, Malaysia, 
Uzbekistan, Cuba all should have been--and others--Tier-3 
countries, and China, but were artificially upgraded--and 
Cuba--because of some other issue.
    As the author of the bill that created all of this, I held 
hearings on it and tried to hold the Administration to account. 
I am going to do three more before their next report comes out. 
We are planning it right now, including one specifically on 
China. But Reuters got people to talk anonymously within the 
TIP Office to say, this is not what it should be.
    Your thoughts on this horrible, wrongful classification of 
China, not as a Tier-3 country--I believe and would really 
appreciate your views on this--that the trafficking will only 
get worse. The bride sellers, the pimps bringing women in from 
adjacent countries, but even further beyond that, and of course 
women inside the country itself who they will sell as 
commodities is only getting worse. And it is not even part of 
the dialogue except as an ancillary issue because they are not 
a Tier-3 country.
    Now the TIP personnel, wonderful foreign service officers, 
people who really pour themselves into this work, their 
recommendations were rejected for some political chicanery on 
the part of the higher-ups. It cannot happen again this year.
    This new book, the TIP report will come out sometime in 
June. They were late last year. It came out in July, late July. 
Hopefully, they do not repeat this. Reuters nailed it.
    So your thoughts on that because it can--when you side with 
the government so you will have a little more trade, a little 
more nice cooperation on this, that, or the other thing, you 
sell out the victims. Now who? I am talking about the 
Administration. I found that appalling. That is the 
consequence. It is a predictable consequence. Your thoughts?
    Ms. Brenning. Yes, I have done lots of research. Actually, 
there is a connection between sex-selective abortion and sex 
trafficking. It is a significant linkage.
    In particular, I think something that you might want to 
focus on is the borders. So Vietnam, in particular, and all of 
those other countries, there is significant bride trafficking 
occurring at the borders of Southeast Asian countries and 
China.
    Maybe instead of focusing specifically on domestic 
trafficking, you can look at the borders as there is so much 
evidence of over-the-border sex trafficking and bride 
trafficking that is occurring, as well as obviously domestic 
trafficking. But, yes.
    You said there is a Tier-4. I am wondering if China should 
be in that Tier.
    Chairman Smith. A Tier-3----
    Ms. Brenning. Absolutely be in Tier-3 according to my 
research. I have done extensive research on this connection. 
There is a connection between the demand for women and the lack 
of women in China. There is a lot happening.
    There was a recent case where China actually did catch a 
few traffickers and they were executed, but I am glad they got 
two of them. There are many more.
    I think looking at the borders could be one policy angle 
that could maybe put a little more pressure on those countries, 
showing the evidence that it is occurring.
    Chairman Smith. I would just add to your answer, Thailand 
remained on Tier-3--which is where it belongs--and they had 135 
convictions. China, at one point, 2 billion people, whatever 
the number is, had 35 convictions. Talk about a lack of 
prosecutorial discretion that goes after these people. It 
doesn't exist.
    Ms. Hvistendahl. Yes, the International Labor Organization 
in Hanoi is doing work on trafficking out of Vietnam. It could 
have changed in the past few years, but when I went there they 
were looking at China as a destination country. China is the 
main driver for trafficking from countries around the region.
    There is trafficking of women into other countries with 
skewed sex ratios as well. And in countries like Taiwan and 
South Korea, which now have generations in which men seriously 
outnumber woman, there is a massive trade in men going to 
Vietnam to buy brides. The women are often sold by their 
parents. The women might say that they go willingly, but they 
are under significant pressure to go.
    When I looked into this, there was one woman in the 
Taiwanese Embassy in Ho Chi Minh City who had made stopping 
this trade her passion. Aside from her and a Catholic ministry 
in Taiwan that was doing very good work on this issue, though, 
there was very little political will toward addressing the 
problem.
    Then with China, the other issue to consider is the 
trafficking of children under the one-child policy. That is a 
major problem.
    Ms. Chai. Yes, I agree with Mara and Julie that in the 
early part of 2010 to 2011 we did a lot of work on ending sex 
trafficking, reuniting trafficked children with their families. 
We helped reunite children as young as two-and-a-half years old 
to older child brides, now 30, to be able to reunite with her 
family.
    In one city alone, in Putian in Fujian province, they have 
a population of 3 million people. Six hundred thousand people 
are as a result of child bride trafficking. It is a city where 
they tend to abort baby girls, but for some reason then they 
use some money to buy other peoples' baby girls and make them 
to be child brides, make sure their sons who have grown up have 
wives to marry.
    So yes, and the 60 percent worldwide trafficking is a 
result of China's gender imbalance. That is a UN statistic. So 
I am shocked that China is not--I do not know whether Tier-1 
sex trafficking state----
    Chairman Smith. Three is the worst.
    Ms. Chai. Yes. I am shocked China is not listed on that. If 
a country that alone contributes 60 percent worldwide sex 
trafficking is not on that list, then what does it say about 
the rest of the list and the legitimacy of that list. 
Therefore, that really remains to be known, then be adjusted, 
and a certain action needs to be taken.
    I do agree, continue to talk and advocate--for every trade 
talk, make sure to talk about the sex trafficking issue, about 
gendercide issues, and they will listen. I believe they will 
listen.
    Chairman Smith. Mr. Pittenger?
    Representative Pittenger. I will be very quick. Considering 
the relaxation of the one-child policy, have you seen a drop or 
increase in terms of the number of women seeking to abort 
females?
    Ms. Chai. We have not seen that yet. Again, this change 
ending the one-child policy is such a new concept. I think 
people are still trying to figure it out right now.
    Representative Pittenger. How often did you try to assist 
women who were not married in their own challenges that they 
face if they are pregnant?
    Ms. Chai. The statistics show 30 to 50 percent of abortions 
taking place in China are for teenage girls and women who are 
under 25 who are not married. So that is a serious issue. 
Currently, we are helping several women who are pregnant but 
unmarried.
    One is a result of rape. So our workers are working with 
her, supporting her to go through to keep the girl.
    Another one is a girl--again, she was unmarried. She was 
ashamed to even tell her mother and her congregation. So our 
worker came along to help her.
    So we do believe the baby-shower program--when the church, 
when a believer truly acts where God wants us to act, he can 
save lives and help them. That is something we would like to 
see the Chinese Government give us permission, the believer 
workers to go into abortion clinics. For every single abortion 
clinic, we would like to have our workers visit those women and 
to show them the truth and to also help them along the way if 
they choose to keep that baby girl.
    It is not a journey one person can take alone, but with the 
community, we can help.
    Representative Pittenger. Billy Graham has nothing on you. 
You give a great presentation. I think I----
    Ms. Chai. Well, thank you.
    Representative Pittenger. I wish I could stay longer. I 
would say that South Korea has adopted a series of policies--
women's rights. If that was adopted in China, would that have 
an impact? Would you recommend something similar to that?
    Ms. Brenning. Some of the elements, I would. As I said, one 
of their biggest policies was dismantling this kinship system, 
this patriarchal kinship system of patrilineal lineage. China 
is the same in giving elderly support, but there are some 
issues with China with that. It is challenging providing that 
amount of money to that many elderly would, I think, would be 
impossible.
    That is why I think there needs to be a cultural-social 
change occurring, not just money handouts, but giving land 
rights to women. I do think some of it can cross over to China, 
but as I said, the scope is quite different. China is much 
bigger, many more people.
    I could keep going, if----
    Representative Pittenger. They have called votes, so I--
Thank you very much. I really appreciate your commitment and 
your leadership. We listened and everything we can do, we will 
support you and support this great need.
    Thank you. God bless you.
    Ms. Chai. Thank you.
    Chairman Smith. Thank you, Mr. Pittenger. We do have to run 
for votes. They shut it down right at zero. So no more grace 
period any more.
    I thank you so much. You really have given the Commission a 
tremendous amount of input, guidance, and inspiration. I thank 
you so much for it.
    Ms. Brenning. Thank you so much.
    Ms. Hvistendahl. Thank you.
    Ms. Chai. With your permission, could I just end it with a 
quick prayer?
    Chairman Smith. Sure.
    Ms. Chai. Okay. Dear Heavenly Father, Lord Jesus,--whoever 
believes and want to join, you are welcome to do that.
    Dear Father, Lord Jesus, Holy Spirit, we thank you for this 
wonderful opportunity, and thank you for the unity of a heart 
and passion. I give you thanks for Mara, for Julie, for 
Congressman Christopher Smith, with other Ranking Congressmen 
who are here, and for many people who are listening for the 
staff, for President Obama's Administration, also for the 
leaders in China, Oh, Lord.
    We just pray you open their hearts and minds. I pray for 
unity. We pray for swift action to end this massive evil, 
gendercide in China and around the world.
    In Jesus' name we pray and believe and trust. Amen.
    Chairman Smith. Thank you. Hearing is adjourned.
    [Whereupon the hearing was concluded at 4:15 p.m.]

                            A P P E N D I X

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                 Prepared Statement of Mara Hvistendahl

                            february 3, 2016
    Thank you, Chairmen Rubio and Smith, for providing me with the 
opportunity to share my thoughts on China's imbalanced population.
    We are all here because we care about the world's women. I appear 
before you as a journalist who lived in China for nearly a decade and 
spent three years investigating sex selection and its effects. As I 
detailed in my book Unnatural Selection, sex selection-- mainly through 
ultrasound examinations followed by abortion--has led to the 
disappearance of over 100 million females from the global population. 
This problem has spread beyond China and India, to countries as varied 
as Albania, Armenia, Azerbaijan, Georgia, South Korea, Taiwan, and 
Vietnam, and even to some groups in the United States and Canada.
    After continuing unabated for over three decades, sex-ratio 
distortion is now a massive international issue. In terms of lives 
affected, it surpasses the HIV epidemic. And yet, despite the scope of 
this problem, there has been little international response. That is in 
part because responsibility is often assumed to lie solely with 
countries like China and India. As I will explain, that assumption is 
wrong.
    The 2010 census, the last year it was taken, found a sex ratio at 
birth of 118 boys per 100 girls in China. The skewed sex ratio is 
painfully obvious if you visit an elementary school in a second- or 
third-tier city in China. Look at any classroom and you will see many 
more boys than girls.
    China's population control policies have undoubtedly contributed to 
this gap. But even as the government's population targets have become 
more lenient and less relevant, sex selection has increased. China's 
sex ratio at birth, in fact, has steadily risen since 1990. It will no 
doubt persist under a two-child policy.
    When I began researching this issue in 2008, I traveled to a county 
called Suining in northern Jiangsu province, once an agricultural area 
that is now industrializing. At the time I visited, Suining's sex ratio 
at birth was estimated at 153 boys per 100 girls. And yet, that hardly 
made it the county in China with the most extreme sex ratio. 
Photographer Ariana Lindquist and I simply went there because she knew 
people from the area, and we figured that those contacts would help us 
delve deeper into the issue.
    We spent a lot of time with a woman whom I call Liao Li. She was a 
strong, independent woman--a mother of two girls and one boy who in 
many ways called the shots in her family. She managed the finances, 
made a lot of the major decisions, and kept the family cell phone when 
her husband was off working construction jobs. While she and her 
husband sometimes struggled to make ends meet, they weren't the poorest 
family in their town. For all of these reasons, she struck me as a 
great guide to the area.
    Over the several days I spent with Liao Li, she was quite critical 
about the epidemic of sex selection that had hit Suining. A few times 
she said things like, ``Girls are very good. They take care of you when 
you're older.'' Sex selection, she told me, is ``stupid thinking, when 
you are, after all, yourself a woman.'' But then shortly before we 
returned to Shanghai, she invited Ariana and me over for dinner. We 
drank some warm beer, and I talked a little about my research. As the 
dinner progressed, Liao Li stood up and said, ``I aborted two girls.''
    That threw me for a loop. As my reporting took me to countries as 
varied as India, Albania, South Korea, and Vietnam, however, I learned 
that Liao Li's situation is in fact fairly typical. The perpetrators of 
sex selection are not, as is commonly portrayed, primarily poor people 
in villages. Throughout South and East Asia, the Caucasus region, and 
the Balkans, sex selection starts in urban areas, among wealthy or 
middle-class and well-educated couples, and trickles down from there.
    Unfortunately, in 2016 sexism is far from dead, and a preference 
for boys still persists in most parts of the world. Second, economic 
development means that just as people move to cities and start having 
fewer children, a new technology--ultrasound--becomes available. The 
third factor is that many of the countries where sex selection is 
practiced have a history of coercive population policies and of 
abortion being forced on women as birth control. When all of these 
factors--son preference, access to new technology, and pressure on 
birth rates--are combined, people take measures to ensure that they 
have a son.
    Sex selection is therefore a very modern problem. But it's also a 
problem for which Western nations, including the United States, bear 
responsibility.
    If you were shaping policy in Washington, D.C. forty years ago, 
there is a good chance that you would have been asked to consider the 
issue of population growth, which was front and center at the time. 
Best-selling books like the Population Bomb warned of a population 
explosion. Population growth was a problem at the time, for a number of 
reasons. But Western intellectuals became obsessed with solving the 
problem by intervening in the developing world, where birth rates were 
highest. And that is where we went wrong.
    Sociologists, anthropologists, and biologists were enlisted in the 
quest to lower birth rates. The legendary Margaret Mead reportedly 
contributed her expertise, and studies were done exploring why families 
were so large. It soon became clear that women in many parts of the 
world continued having children until they had a son. The idea emerged 
to guarantee them a son on the first try and avoid all those extra 
births--never mind that the extra births were girls.
    The notion of sex selection had been around since the time of 
Aristotle. But by the 1960s, with recent breakthroughs in genetics and 
in our understanding of reproduction, it was finally becoming a 
reality. As a science journalist, I am embarrassed to note that the 
world's top science magazines featured gushing articles on possible sex 
selection methods. Everyone took for granted that these new methods 
would be used to select for boys.
    What's particularly shocking today is that America's advocates of 
sex selection actually considered the horrid effects of a world with 
many more men than women. They knew that women's rights would suffer, 
that women would be coveted as wives and mothers and traded as chattel. 
In 1973, British microbiologist John Postgate wrote a cover story for 
the New Scientist on the prospect of widespread sex selection in which 
he wrote, ``It is probable that a form of purdah would become 
necessary. Women's right to work, even to travel freely, would probably 
be forgotten transiently.'' And yet, Postgate and others continued to 
promote sex selection as a population control method.
    Another vocal proponent of sex selection at the time was the 
medical director of the Population Council, Sheldon Segal. In the mid-
1960s, Segal was posted to Delhi, where he started the department of 
reproductive medicine at the All India Institute of Medical Sciences. 
While there, he trained doctors to perform an early method of sex 
determination. A few years later, in 1975, AIIMS became the site of 
shocking medical experiments. Doctors offered poor pregnant women in 
Delhi sex determination and then tracked whether they aborted--and 
wrote up the results in a medical journal. Of course women tended to 
abort if they were carrying girls. That was how sex selection was 
introduced to India.
    That same year, the Chinese Medical Journal--now one of China's top 
journals--published a paper by a group of doctors in Liaoning province 
on a very similar experiment at Tietung Hospital Department of 
Obstetrics and Gynecology. Sex selection's usefulness as a population 
control method is one reason why the Chinese government now has little 
incentive to eradicate it.
    Today, many of John Postgate's predictions have come true. China 
has seen a pernicious rise in bride-buying and trafficking of women, 
both for marriage and for sex. So-called ``marriage agencies'' have 
cropped up across China to help men buy wives. Women are typically 
trafficked from poorer western provinces to eastern China; while 
reporting my book I met several women who had been brought to Jiangsu 
province from rural Yunnan. Increasingly women are also brought in from 
neighboring countries like Vietnam and North Korea. The U.S. State 
Department rightly lists China's gender imbalance as a major cause of 
trafficking in the region.
    What's more, we have historical amnesia. Western institutions 
played a critical role in bring sex selection to Asia. And yet, I can't 
tell you how many reports I've read that blame sex selection squarely 
on traditional values.
    Meanwhile, the nature of sex selection is changing as technology 
marches forward. Already it is no longer just about abortion and 
ultrasound. Instead it involves so-called fetal DNA tests, or blood 
tests a woman can take as early as seven weeks of pregnancy to 
determine fetal sex. In the United States these are already widely 
available, and when I had my first child in China in 2013, they were 
becoming available in Shanghai as well. Sex selection is also practiced 
during in-vitro fertilization, using a technique called preimplantation 
genetic diagnosis. We need to ensure that such technologies are 
properly used. America is the Wild West for assisted reproductive 
technology, which is heavily regulated in Western Europe and Australia. 
Because of a lack of regulatory oversight here, couples from China and 
India now fly to California to choose the sex of their babies using 
IVF.
    As a major international issue, affecting South Asia and Eastern 
Europe as well as China, sex selection demands an international 
response. Moreover, as the entity responsible for the population 
control policies that contribute to the preponderance of boys being 
born, the Chinese government cannot be expected to solve its sex-ratio 
problem without international pressure. As a nation concerned with 
humanitarian causes, and as the birthplace of the technologies that are 
now so brutally affecting populations in Asia, the United States should 
play a leading role in combating sex selection.
    Congress should urge the United Nations to devote more attention to 
publicizing the pernicious after-effects of sex selection worldwide, 
and to pursuing meaningful action to prevent it. Legislators should 
outlaw the use of IVF for social sex selection, or sex selection not 
connected to sex-linked diseases. Congress should further regulate the 
use of fetal DNA tests and limit their use to genetic disease, while 
also ensuring that they are administered in clinics with oversight from 
a genetic counselor.
    I want to add that the solution to sex-ratio imbalance is not to 
further infringe on the rights of women by limiting access to family 
planning. If we were to ban abortion outright, women would suffer, and 
sex selection would not stop. (China and India already outlaw sex-
selective abortions, to little effect.) Limiting access to abortion 
also does nothing to prevent couples from turning to IVF to get a son. 
The solution is instead to eradicate the population control policies--
including China's current two-child policy--that encourage people to 
abort girls; to introduce incentive schemes tailored to the urban 
residents who actually practice sex selection; and to better regulate 
new reproductive technologies, both in the United States and beyond.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                            february 3, 2016
    There are tens of millions of missing girls in China today--a 
predictable consequence of Beijing's cruel and barbaric child 
limitation policies and a cultural preference for boys.
    In her book, Unnatural Selection: Choosing Boys Over Girls, and the 
Consequences of a World Full of Men, Mara Hvistendahl, one of our 
witnesses today, writes that ``there are over 160 million females 
`missing' from Asia's population. That is more than the entire female 
population of the United States. And gender imbalance--which is mainly 
the result of sex selective abortion--is no longer strictly an Asian 
problem.''
    In Azerbaijan and Armenia, in Eastern Europe, and even among some 
groups in the United States, couples are making sure at least one of 
their children is a son. So many parents now select for boys that they 
have skewed the sex ratio at birth of the entire world.
    The global crisis of missing girls constitutes a gross human rights 
abuse--which is aptly described as gendercide--the extermination of the 
girl child in society simply because she happens to be a girl.
    For most of us, the statement ``it's a girl'' is cause for enormous 
joy, happiness and celebration. But in many countries, and even in some 
parts of the U.S.--it can be a death sentence. In China and India 
alone, an estimated three girls are aborted every minute because she is 
a girl.
    Gendercide is not only a predictable tragedy of lost potential, but 
also a demographic time bomb, particularly in China, with social, 
political, and potentially even security implications.
    China faces some of the world's most severe gender imbalances--
according to official estimates, there are currently 34 million more 
males than females in China.
    Demographic experts, such as Valerie Hudson and Nicholas Eberstadt, 
who have testified before this commission previously, have warned that 
China's large number of ``surplus males'' could lead to societal 
instability, higher crime rates and sexual violence, and has already 
increased trafficking of women and girls.
    Trafficking, in particular, is a predictable consequence. As the 
author of the Trafficking Victims Protection Act of 2000--America's 
landmark law to combat sex and labor trafficking--I am deeply concerned 
that China has become the human sex trafficking magnet of the world.
    We have seen a marked increase of women trafficked from neighboring 
Southeast Asian countries such as Vietnam, Myanmar, and Cambodia being 
trafficked into China as brides and for sexual exploitation. North 
Korean women who escape into China also remain at risk for human 
trafficking for forced marriages and forced labor.
    China's gender imbalances are significantly exacerbated by 
government policy--particularly its draconian population control 
policies. Chinese law bans the use of ultrasound scanning technologies 
to determine the gender of unborn babies, but because couples are 
limited to one or two children, millions have circumvented the law to 
abort female unborn babies to ensure their ``government approved 
child'' will be a son.
    China's recently announced ``Two-Child Policy'' will not address 
China's demographic imbalances. Data has shown that sex ratios are 
often more skewed after the birth of the first child. In many parts of 
China, the largest sex ratio imbalances are found in townships or 
villages, where many residents were already allowed to have a second 
child.
    We are holding this hearing today not only to better understand the 
magnitude of the problem, but to find better ways to help rescue the 
next generation of potentially missing girls from violence and death.

    (1) Are there models from other places with past or present gender 
imbalances--such as South Korea and India--that can be used in China 
and elsewhere? As Valerie Hudson has testified before this commission 
previously, South Korea addressed skewed sex ratios in part by 
elevating the status and value of women and daughters, specifically in 
terms of encouraging female access to education, as well as equal 
inheritance, marriage, and property rights.
    (2) Given that the Obama Administration, the UN, and especially the 
UN Population Fund (UNFPA) have failed to adequately address the 
scandal of gendercide, what needs to be done to end these massive 
crimes against women?
    (3) What can the Congress do to help U.S.-based companies, such as 
General Electric, prevent ultrasound equipment which should be used to 
promote the wellness of unborn children from being employed on a gender 
crime search and destroy mission.
    (4) What role can the President, including the State Department and 
Congress play to encourage durable reforms of Chinese policies?
    (5) What U.S. laws need to be reformed or enforced? In 2000, I 
authored a visa ban law for those complicit in coercive abortion. Not 
only has the Administration failed to enforce the ban, but has not 
responded to our December 9th letter asking why.
    (6) Congress passed and the President signed into law the Girls 
Count Act this past year--championed by Senator Rubio and Congressman 
Steve Chabot. This law makes protecting children, especially the girl 
child, a priority of U.S. foreign policy. How should this law be 
implemented and directed?
    By shining a light on what is happening in China with its missing 
girls, we hope to move toward a world where every woman is valued and 
deeply respected because of her intrinsic dignity, and where every 
child is welcomed regardless of his or her sex.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                            february 3, 2016
    For over three decades, China's barbaric One-Child Policy has 
condemned millions of unwanted or ``surplus'' Chinese girls to 
abortion, infanticide, abandonment and human trafficking. This shameful 
policy, coupled with the cultural preference for boys and access to 
cheap ultrasound technology, has resulted in what some demographers and 
human rights advocates have rightly termed gendercide--the wholesale 
extermination of millions of unborn baby girls.
    China is now faced with one of the world's most severe gender 
imbalances with roughly 34 million more males than females. Estimates 
suggest that there will be a surplus of 40-50 million bachelors in 
China through the mid-to late 21st century. The implications of this 
imbalance are not fully known or understood, but they are without 
question significant and troubling.
    Some analysts have argued that China's skewed gender ratio, in 
addition to representing a grievous human rights abuse, poses a serious 
security risk as well. Between 2030 and 2045 at least 20 percent of men 
in China will likely be unable to marry. These ``bare branches'' as 
they are known will almost certainly impact China's stability and 
development. There is already statistical evidence indicating that the 
areas of China with the highest sex ration imbalance also have higher 
incidences of crime to include human trafficking.
    In fact, according to reports from regional governments and civil 
society organizations, trafficking from Southeast Asia into China for 
forced marriage already appears to be increasing. Additionally, already 
vulnerable North Korean refugees who escape into China are at grave 
risk for human trafficking for forced marriages.
    It is worth noting that serious questions persist about the extent 
to which the recently announced Two-Child Policy will address this 
crisis, even in the long term, as data has shown that sex ratios are in 
fact more skewed after the birth of the first child.
    Nearly two months ago I joined with CECC Chairman, Representative 
Chris Smith in urging Secretary of State John Kerry to provide an 
update on the administration's implementation of the ``Girls Count 
Act,'' which was signed into law on June 12, 2015. As this law's chief 
sponsor in the Senate, I was motivated by the fact that every year 
approximately 51 million children under the age of five are not 
registered at birth, most of whom are girls, leaving them susceptible 
to marginalization and exploitation.
    This law directs current U.S. foreign assistance programming to 
support the rights of women and girls in developing countries by 
working to establish birth registries in their countries. The 
legislation also prioritizes a variety of rule of law programs intended 
to raise the legal and financial status of girls in order to help 
address the cultural and financial rationale for sex-selective 
abortions. Both components have particular relevance to China.
    To date, the Administration has failed to respond to our letter. 
Given the enormity of this problem and the bipartisan nature of the 
solution proposed, the seeming lack of priority nearly eight months 
after the president signed the legislation into law is troubling.
    It is worth noting that South Korea, which in the 1990s had a sex 
ratio almost as skewed as China's, has effectively normalized the ratio 
in recent years primarily through elevating the status and value of 
women and daughters--precisely the aim of the Girls Count legislation.
    As a father of four, to include two daughters, I believe it is 
vital that the U.S. continues advocating for the complete elimination 
of government-forced population planning as well as the fundamental 
rights of all Chinese citizens to live up to their God-given potential.

                       Submissions for the Record

                              ----------                              


             [Reprinted from Foreign Policy, June 27, 2011]

                     Where Have All the Girls Gone?

    It's true: Western money and advice really did help fuel the 
explosion of sex selection in Asia.

                         (By Mara Hvistendahl)

    How did more than 160 million women go missing from Asia? The 
simple answer is sex selection--typically, an ultrasound scan followed 
by an abortion if the fetus turns out to be female--but beyond that, 
the reasons for a gap half the size of the U.S. population are not 
widely understood. And when I started researching a book on the topic, 
I didn't understand them myself.
    I thought I would focus on how gender discrimination has persisted 
as countries develop. The reasons couples gave for wanting boys varies: 
Sons stayed in the family and took care of their parents in old age, or 
they performed ancestor and funeral rites important in some cultures. 
Or it was that daughters were a burden, made expensive by skyrocketing 
dowries.
    But that didn't account for why sex selection was spreading across 
cultural and religious lines. Once found only in East and South Asia, 
imbalanced sex ratios at birth have recently reached countries as 
varied as Vietnam, Albania, and Azerbaijan. The problem has fanned out 
across these countries, moreover, at a time when women are driving many 
developing economies. In India, where women have achieved political 
firsts still not reached in the United States, sex selection has become 
so intense that by 2020 an estimated 15 to 20 percent of men in 
northwest India will lack female counterparts. I could only explain 
that epidemic as the cruel sum of technological advances and lingering 
sexism. I did not think the story of sex selection's spread would lead, 
in part, to the United States.
    Then I looked into it, and discovered that what I thought were 
right-wing conspiracy theories about the nexus of Western feminism and 
population control actually had some, if very distant and entirely 
historical, basis in truth. As it turns out, Western advisors and 
researchers, and Western money, were among the forces that contributed 
to a serious reduction in the number of women and girls in the 
developing world. And today feminist and reproductive-rights groups are 
still reeling from that legacy.
    The story begins in the mid-20th century, when several factors 
converged to make Western demographers worried about global population 
growth. Thanks to advances in public health, people were living longer 
than ever before. Projections released by the U.N. Population Division 
in 1951 suggested what the sum of all those extra years of life could 
be: Rapid population growth was on the horizon, particularly in the 
developing world. As pundits forecast a global ``population 
explosion,'' anxiety mounted in policy circles, and the population 
control movement that coalesced brought together everyone from 
environmentalists to McCarthyites. viewed through a 1960s Beltway lens, 
mounting numbers of people meant higher rates of poverty, which in turn 
made countries more vulnerable to communism.
    The U.S. Agency for International Development (USAID), the World 
Bank, and the Rockefeller Foundation were among the organizations that 
poured money into stanching the birth rate abroad, while the 
International Planned Parenthood Federation (IPPF) and the Population 
Council helped coordinate efforts on the ground. As these organizations 
backed research into barriers to couples accepting contraception, one 
of the obstacles quickly identified was that in most parts of the 
world, but particularly in fast-growing Asia, people continued to have 
children until they got a boy. As demographer S.N. Agarwala explained 
in a paper on India he presented at a 1963 IPPF conference in 
Singapore: ``[S]ome religious rites, especially those connected with 
the death of the parents, can be performed only by the male child. . . 
. [T]hose who have only daughters try their best to have at least one 
male child.'' Even in the United States, surveys suggested a preference 
for sons.
    That raised the question: What if couples could be guaranteed a son 
from the start? Elsewhere, scientists were working to perfect fetal sex 
determination tests for women carrying sex-linked disorders like 
hemophilia, which only manifests itself in males. (The first sex-
selective abortions, performed in 1955 by Danish doctors in Copenhagen, 
were actually done on women carrying male fetuses.) But the technology 
was still incipient and required a late-term abortion. Proponents of 
population control began talking about nudging sex selection along. In 
1967, for example, when Planned Parenthood Federation of America 
President Alan Guttmacher received a proposal from an Indian scientist 
interested in finding a way to ``control SEX in human reproduction,'' 
he scrawled a note across the top in hasty red pencil, asking the 
organization's medical director to consider whether the research was in 
fact ``worth encouraging.''
    Planned Parenthood didn't fund the research in the end, but on the 
technicality that the U.S. government had recently cut funding for 
fellowships to foreigners. Six months later Steven Polgar, the 
organization's head of research, went public with the notion that sex 
selection was an effective population control method. Taking the podium 
before an audience of scholars and policymakers at a conference 
sponsored by the National Institute of Child Health and Human 
Development (NICHD), Polgar ``urged,'' according to the meeting's 
minutes, ``that sociologists stimulate biologists to find a method of 
sex determination, since some parents have additional children in order 
to get one of specified sex.''
    At first the language was gender-neutral. But before long the 
descriptions grew more blunt, and some proponents talked frankly about 
selecting for sons. In the years that followed, Population Council 
President Bernard Berelson endorsed sex selection in the pages of 
Science, while Paul Ehrlich advocated giving couples the sons they 
desired in his blockbuster The Population Bomb. ``[I]f a simple method 
could be found to guarantee that first-born children were males,'' he 
wrote, ``then population control problems in many areas would be 
somewhat eased.'' In many countries, he wrote, ``couples with only 
female children `keep trying' in hope of a son.'' A wide range of 
population control strategies were on the table at the time, but by the 
end of the decade, when the NICHD held another workshop on reducing 
birth rates, sex selection had emerged as an approach that participants 
deemed ``particularly desirable.''
    Other spokesmen--for they were mostly men--included Arno G. 
Motulsky, a geneticist at the University of Washington-Seattle, William 
D. McElroy, then head of the biology department at Johns Hopkins 
University, and British microbiologist John Postgate. Postgate was 
particularly resolute. He extolled sex selection in an article for the 
New Scientist, explaining that population growth was so great a threat 
that the drawbacks of a skewed sex ratio would have to be tolerated, 
grim as they were. ``A form of purdah'' might be necessary, he 
predicted, while ``Women's right to work, even to travel alone freely, 
would probably be forgotten transiently.'' A handful of women got on 
board as well. In 1978, former ambassador and former U.S. Congresswoman 
Clare Boothe Luce wrote an article for the Washington Star in which she 
clamored for the development of a ``manchild pill''--a drug a woman 
could take before sex to ensure any children that resulted would be 
male.
    Before long, sex selection emerged as a favored solution. In the 
context of '60s and '70s population politics, it had the appeal of 
being a voluntary strategy that played to individual behavior. In his 
paper for Science, Berelson ranked sex selection's ethical value as 
``high.'' Postgate pointed out, ``Countless millions of people would 
leap at the opportunity to breed male.'' And other strategies being 
tried in Asia at the time entailed coercion, not choice.
    In South Korea, Western money enabled the creation of a fleet of 
mobile clinics--reconditioned U.S. Army ambulances donated by USAID and 
staffed by poorly trained workers and volunteers. Fieldworkers employed 
by the health ministry's Bureau of Public Health were paid based on how 
many people they brought in for sterilizations and intrauterine device 
insertions, and some allege Korea's mobile clinics later became the 
site of abortions as well. By the 1970s, recalls gynecologist Cho 
Young-youl, who was a medical student at the time, ``there were agents 
going around the countryside to small towns and bringing women into the 
[mobile] clinics. That counted toward their pay. They brought the women 
regardless of whether they were pregnant.'' Non-pregnant women were 
sterilized. A pregnant woman met a worse fate, Cho says: ``The agent 
would have her abort and then undergo tubal ligation.'' As Korea's 
abortion rate skyrocketed, Sung-bong Hong and Christopher Tietze 
detailed its rise in the Population Council journal Studies in Family 
Planning. By 1977, they determined, doctors in Seoul were performing 
2.75 abortions for every birth--the highest documented abortion rate in 
human history. Were it not for this history, Korean sociologist Heeran 
Chun recently told me, ``I don't think sex-selective abortion would 
have become so popular.''
    In India, meanwhile, advisors from the World Bank and other 
organizations pressured the government into adopting a paradigm, as 
public-health activist Sabu George put it to me, ``where the entire 
problem was population.'' The Rockefeller Foundation granted $1.5 
million to the All India Institute of Medical Sciences (AIIMS), the 
country's top medical school, and the Ford Foundation chipped in 
$63,563 for ``research into reproductive biology.'' And sometime in the 
mid-1960s, Population Council medical director Sheldon Segal showed the 
institute's doctors how to test human cells for the sex chromatins that 
indicated a person was female--a method that was the precursor to fetal 
sex determination.
    Soon after, the technology matured, and second-trimester fetal sex 
determination became possible using amniocentesis. In 1975, AIIMS 
doctors inaugurated sex-selective abortion trials at a government 
hospital, offering amniocentesis to poor women free of charge and then 
helping them, should they so choose, to abort on the basis of sex. An 
estimated 1,000 women carrying female fetuses underwent abortions. The 
doctors touted the study as a population control experiment, and sex-
selective abortion spread throughout India. In his autobiography, Segal 
professed to being shocked to learn that doctors at AIIMS were using a 
variation on his instructions to perform sex-selective abortions. But 
he neglected to mention that shortly after his stay in India he stood 
before an audience at the National Institute of Child Health and Human 
Development and described sex selection as a method of population 
control. (The minutes from the meeting describe ``sex determination at 
conception''--now finally available today through advances in assisted 
reproductive technology--but in-utero sex determination was the form of 
sex selection furthest along at that point.)
    Sex selection hit China the same year the AIIMS experiments began. 
The country accepted Western aid belatedly, in 1979. But after years of 
being kept out of the Middle Kingdom, the U.N. Population Fund (UNFPA) 
and IPPF jumped at the opportunity to play a role in the world's most 
populous country, with UNFPA chipping in $50 million for computers, 
training, and publicity on the eve of the one-child policy's unveiling. 
Publicly, officers at both UNFPA and IPPF claimed China's new policy 
relied on the Chinese people's exceptional knack for communalism. But, 
according to Columbia University historian Matthew Connelly's account 
of the population control movement, Fatal Misconception, in January 
1980 IPPF information officer Penny Kane privately fretted about local 
officials' evident interest in meeting the new birth quotas through 
forced abortions. Accounts of those eventually leaked out, as did 
reports of sex-selective abortions. In 1982, Associated Press 
correspondent Victoria Graham warned that those augured a spreading 
trend. ``These are not isolated cases,'' she wrote, adding: 
``Demographers are warning that if the balance between the sexes is 
altered by abortion and infanticide, it could have dire consequences.''
    Today, some of those dire consequences have become alarmingly 
apparent. Part of that is the extent to which organizations like UNFPA 
have found themselves unable to perform legitimate services in the 
developing world because of their historic connection to population 
control. For it was news of sex-selective and forced abortions that 
helped fuel a budding anti-abortion movement in the United States. 
Protesters showed up at the 1984 World Population Conference in Mexico 
City, wielding evidence of abuses in China. The next year, President 
Ronald Reagan unveiled what would become known as the ``global gag 
rule,'' cutting off $46 million in funds to UNFPA--money that might 
have gone toward maternal and child health as well as population 
control. The struggle to fund reproductive health continued over the 
next two decades, with subsequent U.S. presidents withdrawing or 
reinstating the gag rule along partisan lines.
    Nowadays, of course, UNFPA and Planned Parenthood are led by a new 
wave of feminist bureaucrats who are keen on ensuring reproductive 
rights, and they no longer finance global population control. Thanks to 
a thriving anti-abortion movement, Planned Parenthood can barely make 
contraceptives and safe abortion available to the American women who 
actually want them. But contentious American politics has these and 
other groups on the left stuck in what Joseph Chamie, former head of 
the U.N. Population Division, calls ``the abortion bind.'' The United 
Nations issued an interagency statement condemning sex selection and 
outlining recommendations for action last week, and UNFPA was among the 
agencies that helped draft it. The organization has also funded 
research on sex selection and sex ratio imbalance at the local level. 
But its legacy in the developing world continues to haunt its leaders, 
to the detriment of women worldwide. Lingering anxiety over taking on 
issues involving abortion, activists and demographers have told me, now 
has UNFPA reluctant to address sex selection head-on at the 
international level--a reluctance that has left the organization's 
enemies to twist the issue to fit their own agenda. (Anti-abortion 
groups and pundits have proven all too eager to take on the issue, 
though they seem far more interested in driving home restrictions on 
abortion than they do in increasing the number of women in the world 
and protecting the rights of women at risk.)
    Meanwhile, as American politicians argue over whether to cut 
Planned Parenthood's U.S. funding and the Christian right drives 
through bans on sex-selective abortion at the state level, the effects 
of three decades of sex selection elsewhere in the world are becoming 
alarmingly apparent. In China, India, Korea, and Taiwan, the first 
generation shaped by sex selection has grown up, and men are scrambling 
to find women, yielding the ugly sideblows of increased sex trafficking 
and bride buying. In a Chinese boomtown, I watched soap operas with a 
slight, defeated woman from the poor mountains of the west who had been 
brought east by a trafficker and sold into marriage. (Her favorite 
show: Women Don't Cry.) In the Mekong Delta, I visited an island 
commune where local women are hawked by their parents for a few 
thousand dollars to ``surplus'' Taiwanese men. While the purdah 
forecasted by John Postgate has not yet come to pass, feminists in Asia 
worry that as women become scarce, they will be pressured into taking 
on domestic roles and becoming housewives and mothers rather than 
scientists and entrepreneurs.
    But what happens to women is only part of the story. 
Demographically speaking, women matter less and less. By 2013, an 
estimated one in 10 men in China will lack a female counterpart. By the 
late 2020s, that figure could jump to one in five. There are many 
possible scenarios for how these men will cope without women--and not 
all, of course, want women--but several of them involve rising rates of 
unrest. Already Columbia University economist Lena Edlund and 
colleagues at Chinese University of Hong Kong have found a link between 
a large share of males in the young adult population and an increase in 
crime in China. Doomsday analysts need look no further than America's 
history: Murder rates soared in the male-dominated Wild West.
    Four decades ago, Western advocacy of sex selection yielded tragic 
results. But if we continue to ignore that legacy and remain paralyzed 
by heated U.S. abortion politics, we're compounding that mistake. 
Indian public health activist George, indeed, says waiting to act is no 
longer an option: If the world does ``not see ten years ahead to where 
we're headed, we're lost.''

    Update: Since this article was posted, UNFPA has added a prominent 
page on sex selection to its website.
                                 ______
                                 

                 ``Gendercide: China's Missing Girls''

                      wednesday, february 3, 2016

                               Witnesses

    Chai Ling, Founder of All Girls Allowed

    Chai Ling is Founder of All Girls Allowed (``In Jesus' Name, Simply 
Love Her''), a nonprofit organization which seeks to expose the 
injustices of China's one-child policy and rescue girls and mothers 
from gendercide. A leader in the 1989 Tiananmen Square student movement 
and two-time Nobel Peace Prize nominee, Ms. Chai escaped from China and 
received her MPA from Princeton and MBA from Harvard. She is the 
founder of Jenzabar, a company that provides higher education software 
management solutions, and co-founder of the Jenzabar Foundation, which 
supports the humanitarian efforts of student leaders. Ms. Chai is also 
author of A Heart for Freedom, a memoir detailing her journey from a 
fishing village in rural China to Tiananmen Square and then America.

    Mara Hvistendahl, Journalist and Author of ``And the City Swallowed 
Them'' and ``Unnatural Selection: Choosing Boys over Girls''

    Mara Hvistendahl is a contributing correspondent at Science and a 
founding member of the writers' cooperative Deca. She also writes for 
The New York Times, The Wall Street Journal, The Atlantic, Popular 
Science, and other publications. Her 2011 book Unnatural Selection, on 
prenatal sex selection and the whopping gender imbalance it has 
produced in Asia, was a finalist for the Pulitzer Prize and the Los 
Angeles Times Book Prize. For eight years, she covered science, 
politics, and other issues from China. She now lives in Minneapolis.
    Julie Ford Brenning, Director of Research & China Outreach, Give 
Her Life

    Julie Ford Brenning is the Director of Research for Give Her Life, 
a non-profit organization seeking to end gendercide via social 
enterprise in Asia. At Give Her Life, she has created the largest 
database in the world solely devoted to the sex ratio at birth in Asia. 
Julie graduated from Brigham Young University with a degree in 
Political Science and received her Master's degree in Asian Studies 
from the University of Utah where she studied the sex ratio at birth in 
China. She has lived in Beijing, China and Taipei, Taiwan. She resides 
with her husband, son and daughter in Logan, Utah.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
